<html>
<title> - HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 23, 2002

                               __________

                           Serial No. 107-226

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

87-890              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Deputy Staff Director
                        Chris Barkley, Assistant


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 23, 2002..................................     1
Statement of:
    Bakersky, Peter, executive officer, National Preparedness 
      Division, Region VIII, Federal Emergency Management Agency.    31
    Carballido, Raul E., Acting Special Agent in Charge, Federal 
      Bureau of Investigation....................................    18
    Hoffner, Lieutenant Roger E., Arapahoe County officer of 
      emergency management.......................................    69
    Mencer, Suzanne, executive director, Department of Public 
      Safety, and director, Homeland Security, State of Colorado.    13
    Miller, Dr. Lisa A., State epidemiologist for bioterrorism, 
      Colorado Department of Public Health and Environment.......    40
    Posner, Paul L., Managing Director, Federal Budget Issues, 
      Strategic Issues, U.S. General Accounting Office...........    81
    Sullivan, David B., acting director, Office of Emergency 
      Management, city of Denver.................................    63
    Wall, Larry H., president, Colorado Health and Hospital 
      Association................................................    60
    Whitney, Major General Mason C., Adjutant General, Colorado 
      National Guard, and executive director, Colorado Department 
      of Military and Veterans Affairs...........................     8
    Wicks, Lieutenant Byron D., Office of Safety Services, Police 
      Division, city of Englewood................................    79
Letters, statements, etc., submitted for the record by:
    Bakersky, Peter, executive officer, National Preparedness 
      Division, Region VIII, Federal Emergency Management Agency, 
      prepared statement of......................................    33
    Carballido, Raul E., Acting Special Agent in Charge, Federal 
      Bureau of Investigation, prepared statement of.............    21
    Hoffner, Lieutenant Roger E., Arapahoe County officer of 
      emergency management, information concerning emergencies in 
      Colorado...................................................    73
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Mencer, Suzanne, executive director, Department of Public 
      Safety, and director, Homeland Security, State of Colorado, 
      prepared statement of......................................    16
    Miller, Dr. Lisa A., State epidemiologist for bioterrorism, 
      Colorado Department of Public Health and Environment, 
      prepared statement of......................................    42
    Posner, Paul L., Managing Director, Federal Budget Issues, 
      Strategic Issues, U.S. General Accounting Office, prepared 
      statement of...............................................    86
    Sullivan, David B., acting director, Office of Emergency 
      Management, city of Denver, prepared statement of..........    65
    Tancredo, Hon. Tom, a Representative in Congress from the 
      State of Colorado, prepared statement of...................     5
    Udall, Mr. Mark, a Representative in Congress from the State 
      of Colorado, prepared statement of.........................     6
    Wall, Larry H., president, Colorado Health and Hospital 
      Association, prepared statement of.........................    61
    Whitney, Major General Mason C., Adjutant General, Colorado 
      National Guard, and executive director, Colorado Department 
      of Military and Veterans Affairs, prepared statement of....    11

 
  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                        FRIDAY, AUGUST 23, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                        Denver, CO.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
the Jefferson County Municipal Building, 100 Jefferson County 
Parkway, Hon. Stephen Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Horn and Tancredo.
    Staff present: J. Russell George, staff director, chief 
counsel; Dave Bartel, chief of staff; Bonnie Heald, deputy 
staff director; Chris Barkley, assistant to the subcommittee; 
and Michael Sazonov, staff assistant.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and their 
willingness to protect that freedom. The diabolical nature of 
those attacks and then the deadly release of anthrax sent a 
loud and clear message to all Americans: We must be prepared 
for the unexpected. We must have the mechanisms in place to 
protect this Nation and its people from further attempts to 
cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there remain 
serious doubts as to whether the Nation is equipped to handle a 
massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State, and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of Colorado and the good people of cities such as 
Golden and Denver to know that they can rely on these systems 
should the need arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the front lines. We want to 
hear about their capabilities and their challenges. And we want 
to know what the Federal Government can do to help. We welcome 
all of our witnesses and we look forward to their testimony.
    We are very pleased to have with us today as a member of 
this subcommittee, and without objection, he will have full 
rights to question and also to have his rights, and that's your 
own representative, Tom Tancredo. We would like to have an 
opening statement from him.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.001
    
    Mr. Tancredo. Thank you, Mr. Chairman, and thank you very 
much, for--and thanks to the committee for coming to Colorado 
to discuss these issues. I am pleased because of what I have 
seen up to this point in time in terms of the way that the 
State has responded. I am very interested in knowing in more 
detail exactly how that coordination and cooperation has taken 
shape in Colorado, as are you and is the Nation.
    I hope that the Federal Government is going to be able to 
provide a certain model for this kind of cooperation through 
the creation of the homeland defense agency where we, in fact, 
are attempting to take those agencies that have a 
responsibility for homeland defense and not just have them 
cooperating on an interagency basis, but having them part of a 
single agency with a single purpose, one director, so that 
everybody seems to be, hopefully, on the same page.
    This is, of course--The proposal has passed the house, and 
I am certainly looking forward to it passing in the Senate. I 
know that the President has proposed it and is enthusiastically 
supporting it. So I think it is, in a way, a good model, at 
least in terms of the way he describes it, the way people can 
work together. We are not looking for a similar legislatively 
directed creation of cooperation here in the State, but I think 
that we can look at what has happened here and, hopefully, 
around the country and take some hope away from this.
    We are going to be asking people here who think about the 
unthinkable, to help us through this process, and give 
everyone, I suppose, a feeling of security; not a false sense 
of security, but a real sense of security because they know 
that good people put their minds together to come up with 
programs that will work and be effective. And so I certainly 
look forward to the testimony today.
    And I again want to express my sincere appreciation for you 
and the committee to come out here and prepare for this.
    [The prepared statements of Hon. Tom Tancredo and Hon. Mark 
Udall follow:]

[GRAPHIC] [TIFF OMITTED] T7890.002

[GRAPHIC] [TIFF OMITTED] T7890.003

[GRAPHIC] [TIFF OMITTED] T7890.004

    Mr. Horn. Thank you very much. Let me now say how we use 
witnesses. We are delighted that you've put your heart in 
providing us advance statements before the actual hearing, and 
they have been very fine. We've looked at all of them, and our 
staff is here with us. That will become part of a major report 
with the House of Representatives.
    And so the way we operate is, we have an agenda, you see, 
we start here with the adjutant general. We will be swearing 
all the witnesses to affirm the oath on the testimony and that 
will be amended. But when we call on each, automatically the 
reporter of debates puts that statement in the hearing, and so 
you don't have to read it. You can get your own thoughts on it 
in a summary that gets to the essence of your written document.
    So don't feel you have to read 10 or 15 minutes. We like it 
more in the 5-minute range, and then that's good for you and 
us. So we thank you all for coming and spending your time.
    And we will now have you stand and raise your right hand. 
And if you have any staff behind you that will also talk in 
answering questions, please have them take the oath too. And 
the clerk will note and get the names of those, so keep 
standing back there.
    [Witnesses sworn.]
    Mr. Horn. Thank you. And the clerk will note that all of 
them were in the back there and so forth. Just mark the names.
    And we are delighted to open, as we have in other hearings, 
we have Major General Mason C. Whitney, Adjutant General of the 
Colorado National Guard, a very important portion of how we 
deal with preventing and solving the terrorism problem.
    So, General, thank you for coming.

STATEMENT OF MAJOR GENERAL MASON C. WHITNEY, ADJUTANT GENERAL, 
   COLORADO NATIONAL GUARD, AND EXECUTIVE DIRECTOR, COLORADO 
          DEPARTMENT OF MILITARY AND VETERANS AFFAIRS

    General Whitney. Mr. Chairman, thank you very much for this 
opportunity to talk to your committee about the Colorado 
National Guard and our participation in homeland security. As 
you are aware, the Colorado Department of Military and Veterans 
Affairs is the State organization that I am responsible for, 
and that consists of the Colorado National Guard, which is 
about 5,000 soldiers and airmen consisting of the Army National 
Guard and the Air National Guard, as well as the Civil Air 
Patrol, which is also an important part of our homeland 
security mission.
    Now, that consists of 2,000 volunteers throughout the State 
of Colorado in 17 different locations, as well as the Veterans 
Affairs, which consists of over 400,000 veterans within the 
State of Colorado.
    Basically, we have two missions within the Colorado 
National Guard and, as well, the Civil Air Patrol identifies 
with those two missions as well, and they include the State 
mission of emergency response and the Federal mission for 
national defense. Now, in preparation for those Federal 
missions, we receive about $135 million per year for the 
Colorado National Guard from Federal funds to train and 
participate in those Federal missions of national defense. The 
State mission response, we receive about $4.2 million of State 
funds to prepare for State emergency response missions.
    When September 11th arrived, and the terrorist events that 
took place then, we immediately recalled our Air National Guard 
units so that they would be prepared to launch F16s and 
maintain air supremacy or take care of any kinds of activities 
that still may be or may have been prevalent during the 
missions that we saw that were accomplished by the terrorists.
    So we had, within 15 minutes, two F16s prepared to launch 
after the terrorist events on September 11th. And within 30 
minutes of those terrorist events, we had both F16s airborne, 
and we had all 16 of our F16s at Buckley Air Force Base 
prepared in case they were needed.
    Along with that, we also had our Army National Guard units 
recalled that would be providing any kind of security 
reinforcements for law enforcement agencies throughout the 
State. All in all, we had over 1500 of our air National Guard 
and Army National Guard personnel that were at their duty 
stations within approximately 45 minutes of those terrorist 
activities.
    As you know, we also were called upon to provide airport 
security in support of the law enforcement organizations that 
were responsible for the airport security throughout the State 
of Colorado. We had over 220 of our soldiers that were on 
active duty, that were on State duty with Federal pay, for over 
8 months during that period. They provided airport security to 
over 13 airports throughout the State of Colorado.
    During the time that we have responded to this homeland 
security mission, we have performed over 4,000 days of State 
active duty in response to other State emergencies, such as 
forest fires that have been prevalent in the State of Colorado 
this year. So, as you can see, it's been a very busy year so 
far for the Colorado National Guard.
    Now, of course, the Civil Air Patrol has capabilities as 
well to respond to homeland security missions. Visual 
reconnaissance throughout the State, coupled with their search 
and rescue capabilities, is one of their main missions that 
they perform within the State of Colorado.
    We have some unique capabilities within the National Guard 
also that aid in our homeland security mission, and one of 
those unique missions that we have is a Weapons of Mass 
Destruction Civil Support Team that consists of 22 full-time, 
100 percent federally funded employees of the Colorado Army and 
Air National Guard that respond to nuclear, biological, and 
chemical events throughout the State, as well as a geographical 
area that used to be defined as FEMA Region VIII, but now 
they've redefined those regions to more accurately--or more 
adequately deploy other civil support teams throughout the 
United States so we have 100 percent coverage with every State.
    That team and the teams also, the other 26 teams throughout 
the United States, have been extremely busy over the last 
several months. They have responded to anthrax precautions that 
were taken by local agencies or by the FBI. We've also 
responded to events that could be considered a chemical 
liability within the State. We've supported other law 
enforcement and local responders with that team in terms of 
exercises, making sure that we are compatible with their 
operational procedures.
    All units of the Colorado Army and Air National Guard are 
also trained in every possibility of warfare, and one of those 
obviously is chemical warfare, biological warfare, and nuclear 
warfare. That's a matter of their readiness training, so it's 
something that comes second nature to them. So there is 
response capability within the entire organization for those 
type of events.
    Sir, that basically summarizes what we've done over the 
last several months in terms of homeland security, in terms of 
what our capabilities are.
    We also have some challenges ahead, and one of the 
challenges we face, I think, is: Is the National Guard properly 
equipped and trained to be able to respond to those types of 
terrorist events that could happen in the future? That's 
something I think that will be on a major agenda item for our 
new commander of Northern Command, U.S. Northern Command down 
at Colorado Springs, General Ed Eberhart.
    Mr. Horn. You might want to spell that.
    General Whitney. Yes, sir. E-b-e-r-h-a-r-t.
    And General Eberhart, obviously, has been in discussions 
with the National Guard already about what our role will be 
with the homeland security mission within the military, 
realizing that General Eberhart operates in a Title 10 world, 
the Title 10 Federal statutes, and the National Guard operates 
in the Title 32 world, which is essentially the State part of 
the Federal statutes.
    Subject to your questions, that's all I have, sir.
    [The prepared statement of General Whitney follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.005
    
    [GRAPHIC] [TIFF OMITTED] T7890.006
    
    Mr. Horn. And we will now go to Ms. Mencer. Ms. Mencer is 
the executive director, Department of Public Safety, director 
of Homeland Security, State of Colorado. I assume that is the 
Governor's sort of operation?
    Ms. Mencer. That's correct.
    Mr. Horn. Put it all together?
    Ms. Mencer. Yes.

STATEMENT OF SUZANNE MENCER, EXECUTIVE DIRECTOR, DEPARTMENT OF 
   PUBLIC SAFETY, AND DIRECTOR, HOMELAND SECURITY, STATE OF 
                            COLORADO

    Ms. Mencer. Thank you, Mr. Chairman. Thank you for inviting 
me to speak here today.
    I think we realized in 1993, after the first bombing of the 
World Trade Center, and then after the bombing of the Murrah 
Building in 1995, that we needed to refocus our efforts on this 
issue of terrorism, particularly domestic terrorism, which we, 
I don't think, gave much attention to at all until 1995. I 
think what we learned on September 11, 2001, is that our 
efforts still were not sufficient to combat this threat, either 
internationally or domestically.
    I have the unique advantage, I guess, of having been in the 
FBI for 20 years; 13 of those years I was a counterterrorism 
and foreign counterintelligence supervisor, both at FBI 
headquarters and here in Denver. So I have that in my 
background as well, which serves me well now that I try to look 
at how to protect the State with not only sharing intelligence 
with law enforcement agencies, but also with looking at plans, 
preparedness, and response issues as well.
    On November 7, the Governor, by executive order, created 
the Office of Preparedness and Security in the State. Given our 
tight fiscal problems that we are having now, he created this 
office using existing resources that the State already had, and 
focused our efforts in the area of terrorism. To do this, we 
used my personnel from the Department of Public Safety, we 
used--we borrowed one person from the Department of Health and 
Environment that specialized in bioterrorism, and we used two 
people from the Office of Emergency Management, who have always 
done a good job at protecting the State in all kinds of all-
hazards approaches to disasters.
    But their specific tasking has been to look at focusing the 
State on preparedness issues of weapons of mass destruction. To 
do that, we have divided this office into two areas of focus. 
One is preparedness, plans, and response. To do that--and this 
office, by the way, was signed into law by the Governor after 
passing the legislature in this last legislative session in the 
Colorado legislature, so it became an office permanently in 
June.
    The focus of this office then is twofold. One is for plans, 
preparedness, and response. To do that, the Governor announced 
2 weeks ago that we were dividing the State into seven 
districts. Six of those districts are the existing State Patrol 
districts with one exception, and that is, we carved out the 
five counties of the metro area to create the seventh district. 
We didn't want the six districts to be overwhelmed by the key 
assets that we have up and down the front range. So we decided 
to create this seventh district of the metro area, which we 
did.
    These districts will then be coordinated by three 
individuals: A major of the State Patrol of that district, an 
OEM regional planner that is assigned to that area, and a CBI 
investigator, agent-in-charge. Their responsibility will be to 
bring to the table everyone from that district that should have 
a say in plans and preparedness issues. They will look to fire 
chiefs, to police chiefs, to sheriffs. They will look to health 
care professionals in that district. They will look to 
emergency first responders in that district, and ask for 
assistance from the National Guard and FEMA to coordinate what 
should the plans be, are the existing plans sufficient. And, 
indeed, we already have good plans out there; we don't want to 
reinvent the wheel. Are they sufficient to handle weapons of 
mass destruction? If not, what additional responses do they 
need in that area, and what kind of training and equipment do 
they need that they don't already have? So we'll be looking at 
that in each of the districts.
    Additionally, we'll also be looking at developing an 
intelligence collection piece. I think when I was in the FBI, 
sharing of intelligence with local law enforcement agencies 
consisted of me receiving the information from the sheriffs and 
chiefs and saying, ``Thank you.'' That was about the end of the 
sharing. I think what--is there clapping back there?
    I think what we've learned is that we have to share better. 
And, indeed, the FBI created joint terrorism task forces all 
over the United States. Denver was one of the first offices to 
do that. I'm sure Mr. Carballido will speak more about that. 
And I'm pleased to say that we have a Colorado State trooper on 
the domestic side of the joint terrorism task force. So we are 
very lucky to have a seat at the table.
    Unfortunately, the task forces, by necessity, are limited 
as to who can be at the task forces. So we need to have a way 
to better have the chiefs and the sheriffs and other folks out 
there that have intelligence or that see things every day to be 
able to share that. So we are going to act as a clearinghouse 
for this kind of information so that we can then package it and 
provide it to the FBI if it rises to the level of an 
investigative concern. So that's what we hope to do.
    We do need to break down some barriers among law 
enforcement agencies. It is difficult, if you work hard to get 
information, to then give it up and share it with other 
agencies. That's always been a problem with law enforcement. So 
we are looking at ways to try to break down those barriers 
because I think what we've all learned since September 11th is 
we do need to share better, and we are going to work very hard 
at doing that.
    We applaud the efforts of the Department of Homeland 
Security and of Governor Ridge, and the President's initiative 
to create this new department, similar to what we have done 
here in the State, taking existing resources, combining them 
together to focus on this issue of terrorism. So we very much 
applaud that.
    We are in close contact with the Office of Homeland 
Security. I am in biweekly conference calls with them. I just 
had one yesterday. We share their concerns. They're divided by 
FEMA regions. We are with FEMA Region VIII and X on our 
conference calls. And all the States' homeland security 
directors are there. So it is an opportunity for us to share 
our concerns, ask our questions, and get answers at that time, 
and they've been very responsive to all the questions we've 
had. So we have a good relationship with them.
    We also--I go back about every other month to meet with 
Governor Ridge and his staff. All the homeland security 
directors do, and this has been very helpful as well, so that 
we know where they're going, what their direction is, and what 
kind of information they can provide to us to better make our 
system here in Colorado more functional in working with them. 
So we are busy on that.
    The Governor also created an infrastructure committee 2 
weeks ago, and this will be to bring in the private sectors as 
well in the State. We will have at least 13 people at that 
table, each representing the 13 critical infrastructures as 
defined by the national security strategy. We will look at 
those 13 infrastructures and then add some as well, such as 
education, to decide things for the State, like the structure 
of the threat level system. What does it mean for education if 
we go up from a Level Yellow, which we are at now, to a Level 
Orange? What does it mean--do you send your kid to school if we 
go up to a Level Red? Do you ride the light rail if we are at 
the red level?
    These are the kinds of questions we will ask this committee 
to come up with by asking their constituents to come up with 
the models that we need to use and then disseminate to the 
public as to how we are going to react to this kind of thing. 
So that way we will bring in the private sector as well and get 
input from everyone because this is indeed a problem that has 
to be solved by everyone, not just law enforcement, not just 
the National Guard, not just Public Safety, but we have to all 
work together on this. Thank you.
    [The prepared statement of Ms. Mencer follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.007
    
    [GRAPHIC] [TIFF OMITTED] T7890.008
    
    Mr. Horn. Thank you. That's very helpful. And in the 
question period I'm sure we'll have plenty to check. And we are 
now having Raul Carballido, who is the acting special agent-in-
charge, Federal Bureau of Investigation. Is that in the Denver 
office?
    Mr. Carballido. Yes, sir.
    Mr. Horn. Well, we are delighted you and your other people, 
starting with Y2K years ago and our jurisdiction over Federal 
executive computers. And they have been greatly helpful with 
their hacking and all the rest of it, and on the lootists and 
the viral this or that and sickness here and there in 
computers; and they've really been a great help for private 
industry as well as for government. And so thank you for being 
here.

   STATEMENT OF RAUL E. CARBALLIDO, ACTING SPECIAL AGENT IN 
            CHARGE, FEDERAL BUREAU OF INVESTIGATION

    Mr. Carballido. Thank you, Mr. Chairman. Good morning, 
Chairman, board members of the subcommittee, and distinguished 
members of the Colorado delegation. I value the opportunity to 
appear before you and discuss terrorism preparedness, including 
threats posed by attacks involving weapons of mass destruction, 
as well as measures being taken by the FBI and law enforcement 
partners to address these threats. The mission of the FBI's 
counterterrorism program is to detect, deter, prevent, and 
swiftly respond to terrorist actions that threaten U.S. 
interests at home or abroad, and to coordinate those efforts 
with local, State, Federal, and foreign entities as 
appropriate. The Denver field office of the FBI is responsible 
for the States of Colorado and Wyoming. The field office's 
headquarters is located in Denver with satellite offices 
throughout the States of Colorado and Wyoming.
    Enhanced cooperation among law enforcement at all levels is 
a significant component of the prevention and investigation of 
terrorism. This cooperation is most evident in the development 
of the Joint Terrorism Task Forces, short JTTF, that now exists 
in all 56 FBI field offices. These task forces are successful 
for the integration of resources provided by local, State, and 
Federal agencies.
    The Denver field office, JTTF, was formed in 1996. It is 
composed of numerous Federal, State, county, and municipal law 
enforcement agencies. The Denver JTTF also coordinates with the 
recently created Colorado Office of Preparedness, Security and 
Fire Safety to share information on terrorism-related matters. 
This cooperation is demonstrated through the anticipated 
sharing of an analyst who will conduct terrorism-related 
research and analysis for the FBI and the Colorado Office of 
Preparedness, Security and Fire Safety.
    Denver, as you know, Mr. Chairman, is also home to a number 
of significant military assets located in Colorado and Wyoming. 
The newly established Northern Command, NORTHCOM, is now 
located at Peterson Air Force Base in Colorado Springs. On 
October 1, NORTHCOM, Homeland Security Combatant Command, will 
become operational. In an effort to facilitate cooperation, 
coordination, and the sharing of information between the FBI 
and NORTHCOM, in issues relative to terrorism activities and 
other activities of joint interest, the FBI will assign a full-
time, senior-level special agent to the command.
    The Denver field office of the FBI has taken a proactive 
approach in its preparation for terrorist attacks involving 
weapons of mass destruction. In January 1999, Denver field 
office completed its own Weapons of Mass Destruction Incident 
Contingency Plan. This plan was designed to provide specific 
guidance for response within the Denver field office. The plan 
is updated annually and has been utilized numerous times to 
resolve weapons of mass destruction threats or incidents within 
Colorado and Wyoming.
    In addition to the domestic preparedness training that we 
have received over the years, we have also provided weapons of 
mass destruction awareness and response training to numerous 
law enforcement, fire, emergency medical, emergency management, 
military and infrastructure agencies and organizations.
    The Denver field office has also participated in numerous 
local, regional, and national weapons of mass destruction 
exercise scenarios. We consider our involvement in both 
training and exercises to be essential to maintaining and 
enhancing our relationships with our local, State, and Federal 
partners.
    In 1996 the FBI established a Hazardous Materials Response 
Unit, which is based in Quantico, Virginia. Staffed with 
subject matter experts, the unit has provided national and 
international assistance in the response to weapons of mass 
destruction terrorism. In May 2000, the unit certified the 
Denver field office's hazardous materials response team. This 
is one of 17 teams throughout the country and a regional asset 
for the FBI. This team, which is comprised of FBI agents 
specially trained to operate in a contaminated environment, has 
the capability to respond to a crime scene where weapons of 
mass destruction may be present.
    We have also participated in the development of local 
weapons of mass destruction response plans. An important 
example of this is the recent development of a Metropolitan 
Medical Response Plan for the Denver Metropolitan area and the 
ongoing development of a similar plan for Colorado Springs.
    In December 1998, FBI Denver took a leadership role in the 
establishment of what is known as the Colorado Counterterrorism 
Advisory Council. This group, which has met monthly since its 
inception, includes representatives from a variety of State and 
Federal agencies who have primary responsibility for response 
to weapons of mass destruction issues within the State of 
Colorado. The group has also established interagency 
notification and response protocols which have greatly enhanced 
our ability to efficiently share information and provide 
response resources.
    Since the deliberate distribution of anthrax in the U.S. 
mail during December and October 2001, FBI Denver has responded 
to more than 800 telephonic requests for assistance concerning 
potential weapons of mass destruction terrorism, primarily 
regarding anthrax. In addition, FBI Denver provided field 
responses to potential weapons of mass destruction incidents on 
more than 100 occasions and opened more than 30 criminal 
investigations. The ability to handle this many incidents is a 
direct result of the partnerships developed among the Federal, 
State, and local response community, which included the 
establishment of efficient operational protocols and agreements 
for laboratory testing of chemical, biological, and 
radiological agents.
    In conclusion, Mr. Chairman, terrorism represents a 
continuing threat to the United States, and as the lead Federal 
agency for response to a weapons of mass destruction threat or 
incident, the FBI must remain prepared to tackle this 
formidable threat--formidable challenge, I should say. In order 
to effectively and efficiently respond to the threat, the 
Denver field office of the FBI continues to enhance its 
counterterrorism program.
    Chairman Horn, this concludes my prepared remarks. I would 
like to express my appreciation to this subcommittee's 
examination of the issue of counterterrorism preparedness, and 
I look forward to responding to any questions. Thank you, sir.
    [The prepared statement of Mr. Carballido follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.009
    
    [GRAPHIC] [TIFF OMITTED] T7890.010
    
    [GRAPHIC] [TIFF OMITTED] T7890.011
    
    [GRAPHIC] [TIFF OMITTED] T7890.012
    
    [GRAPHIC] [TIFF OMITTED] T7890.013
    
    [GRAPHIC] [TIFF OMITTED] T7890.014
    
    [GRAPHIC] [TIFF OMITTED] T7890.015
    
    [GRAPHIC] [TIFF OMITTED] T7890.016
    
    [GRAPHIC] [TIFF OMITTED] T7890.017
    
    [GRAPHIC] [TIFF OMITTED] T7890.018
    
    Mr. Horn. Well, I thank you, gentlemen, and thank you again 
for the good presentation. We now move to Peter Bakersky, 
Director of the Office of National Preparedness, Region VIII, 
Federal Emergency Management Agency, otherwise known as FEMA.

   STATEMENT OF PETER BAKERSKY, EXECUTIVE OFFICER, NATIONAL 
     PREPAREDNESS DIVISION, REGION VIII, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Bakersky. Good morning, Mr. Chairman. It's a pleasure 
for me to be here to discuss a pressing matter of how FEMA is 
assisting State and local government to prepare for a potential 
terrorist attack involving biological, chemical, or nuclear 
agents. FEMA is the Federal agency responsible for leading the 
Nation in preparing for, responding to, and recovering from 
disasters. Our success depends on our ability to organize and 
lead a community of local, State, and Federal agencies and 
volunteer organizations. The Federal Response Plan forms the 
heart of our management framework and lays out the process by 
which interagency groups work together to respond as a cohesive 
team to all types of disasters. In response to the terrorist 
events of 2001, the Federal Response Plan has proven to be an 
effective and efficient framework for managing all phases of 
disasters and emergencies. The plan is successful because it 
builds upon existing professional disciplines, expertise, 
delivery systems, and relationships among the participating 
agencies.
    Much of our success in emergency management can be 
attributed to our historically strong working relationship with 
our State and local partners. Through our preparedness programs 
we provide the financial, technical, planning, training, and 
exercise support to give State, local, and tribal governments 
the capabilities they need to protect public health, safety, 
and property both before and after the disaster strikes.
    In meeting the challenges ahead for State and local 
government, FEMA's Office of National Preparedness is becoming 
more robust. The mission of the Office of National Preparedness 
is to provide leadership in coordinating and facilitating all 
Federal efforts to assist State and local first responders, as 
well as emergency management organizations, with planning, 
training, equipment, and exercises.
    FEMA has made the following changes to support this 
expanded mission. We have realigned preparedness activities 
from the Readiness, Recovery, and Response Directorate to the 
Office of National Preparedness. We have realigned all training 
activities into the U.S. Fire Administration to allow greater 
coordination between training for emergency managers and 
training for the first responders. We have moved the authority 
for credentialing, training, and deploying the urban search and 
rescue teams from the Readiness, Response, and Recovery 
Directorate to the U.S. Fire Administration.
    We continue to work with all 55 States and Territories and 
federally recognized Indian tribes and Alaskan native villages 
to implement our current and other grant programs to assist 
State, tribal, and local governments to enhance their 
capabilities to respond to all types of hazards and 
emergencies, such as chemical incidents, incidents involving 
radiological substances, and national disasters.
    We recognize that chemical, biological, and radiological 
scenarios will present unique challenges to the first responder 
community. Of these types of attacks, we are, in many ways, 
better prepared for a chemical attack because such an incident 
is comparable to a large-scale hazardous materials incident.
    In such an event, the Environment Protection Agency and the 
Coast Guard are well connected to local hazardous materials 
responders, State and Federal agencies, and the chemical 
industry. There are systems and plans in place for response to 
hazardous materials, systems that are routinely used for both 
small and large-scale events. The EPA is also the primary 
agency for the hazardous materials function of the Federal 
Response Plan. We are confident that we would be able to engage 
the relevant players in a chemical attack based on the 
hazardous materials model.
    Bioterrorism, however, presents the greater immediate 
concern. With a covert release of a biological agent, the first 
responders will be hospital staff, medical examiners, private 
physicians, or animal control workers instead of the 
traditional first responders, with whom we have a long-term 
relationships.
    The Department of Health and Human Services leads the 
efforts of the health and medical community to plan and prepare 
for a national response to a public health emergency and is the 
critical link between the health and medical community and the 
larger Federal response. The Department of Health and Human 
Services is also our primary agency in the Federal Response 
Plan for health and medical services.
    The Federal Radiological Emergency Response Plan has 17 
Federal agency signatories, and the Nuclear Regulatory 
Commission is the lead Federal agency for coordinating the 
overall response, and FEMA is responsible for coordinating 
nonradiological support.
    Tabletop exercises have been conducted in order to 
determine Federal agency resources for responding to a 
terrorist attack with a radiological component. In addition, 
nuclear or radiological threat posed by improvised nuclear 
devices and radiological dispersal devices is being evaluated, 
as well as the preparedness of member departments and agencies 
to deal with these threats.
    It is FEMA's responsibility to ensure that the national 
emergency management system is adequate to respond to the 
consequences of catastrophic emergencies and disasters 
regardless of the cause. We rely on our partners at the State 
and local level. Without question, they need support to further 
strengthen their capabilities and their operating capacity.
    FEMA must ensure that the national system has the tools to 
gather information, set priority, and deploy resources 
effectively. In recent years we have made tremendous strides in 
our efforts to increase cooperation between the various 
response communities and now we need to do more.
    The creation of the Office of National Preparedness and our 
emphasis on training, planning, equipment, and exercises, will 
enable us to better focus our efforts and will help our Nation 
become better prepared for the future.
    Thank you, Mr. Chairman, and I'll be available for any 
questions.
    [The prepared statement of Mr. Bakersky follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.019
    
    [GRAPHIC] [TIFF OMITTED] T7890.020
    
    [GRAPHIC] [TIFF OMITTED] T7890.021
    
    [GRAPHIC] [TIFF OMITTED] T7890.022
    
    [GRAPHIC] [TIFF OMITTED] T7890.023
    
    [GRAPHIC] [TIFF OMITTED] T7890.024
    
    [GRAPHIC] [TIFF OMITTED] T7890.025
    
    Mr. Horn. Thank you. And now we have Dr. Miller, the State 
epidemiologist for bioterrorism, Colorado Department of Public 
Health and Environment.

   STATEMENT OF DR. LISA A. MILLER, STATE EPIDEMIOLOGIST FOR 
    BIOTERRORISM, COLORADO DEPARTMENT OF PUBLIC HEALTH AND 
                          ENVIRONMENT

    Dr. Miller. Thank you, and good morning, Mr. Chairman. The 
previous speaker, I think, gave me a great lead-in to talk 
about the ways that the Federal Government, and specifically 
the U.S. Department of Health and Human Services, is aiding 
both State and local public health and hospitals to become 
better prepared to deal with bioterrorism.
    The Colorado Department of Public Health and Environment is 
the recipient of two Federal grants recently to help us become 
better prepared. The first grant I'm going to just touch on 
briefly is Colorado's hospital preparedness grant. And these 
grant funds are provided through the Department of Health and 
Human Services via the Health Resources and Services 
Administration, and they're intended to upgrade the 
preparedness of hospitals. This grant was developed by the 
department, but there is oversight from a committee, and this 
committee has a broad range of representation. And I think 
that's a really important point to make.
    This is obviously a very complicated area, and I think 
you've gotten the picture just from the few speakers before me 
that we have a lot of coordination to do. So to help coordinate 
this grant, we have an advisory committee from Veterans 
Affairs, Indian health service, from community health agencies, 
and from private providers, to really give us that additional 
perspective. The Hospital Preparedness Advisory Committee is 
led by Mr. Larry Wall, who is going to give you comments later. 
So I'm not going to go into any more detail about that grant, 
and I'll let Mr. Wall take that one further.
    The second grant I want to mention briefly is Colorado's 
public health bioterrorism preparedness grant. And this grant 
is intended to build public health infrastructure, both at the 
State public health level and at the local agency level. This 
grant is actually about 3 years old. We started receiving 
Federal funds in public health for bioterrorism preparedness in 
1999, but recently the Federal Government has increased those 
funds dramatically, as I'm sure you're aware. We went from 
receiving about $1 million a year to, this year, $14.6 million.
    And I want to point out a couple things about this grant. 
First of all, although the grant is called a bioterrorism 
grant, it really is intended to help improve the infrastructure 
of public health so we can respond not only in the, hopefully, 
unlikely event of a major bioterrorism event, but we can 
respond to everyday emergencies which we have in public health 
all the time. We have an example right now going on. We have a 
new disease in our country, West Nile virus. So this is 
intended really to help us respond to both that, ``everyday 
emergency'' in public health and the other bigger issue of a 
bioterrorism event.
    Again, in this grant, we both wrote the grant and have 
oversight in this grant by a committee. And we wrote the grant 
with the input of both a broad range of State health department 
individuals and local health department individuals. And then 
we have an advisory committee, and that advisory committee is 
actually made up of several individuals in this room. Ms. 
Mencer sits on the advisory committee. Major General Whitney, 
Mr. Wall, Mr. Greer and Agent Airy have been involved in the 
work of the committee. So, again, we are trying to really get 
some coordination between our different agencies and make sure 
that the one knows what the other is doing and has input into 
those activities.
    The grant, as you see in my notes, is divided into six 
focus areas. These focus areas are funded separately. They deal 
with specific readiness preparations, that is, the writing of 
the plans, the exercising of those plans, and training. They 
also deal with surveillance and epidemiology, which is the 
ability to detect and respond to an event quickly. So if there 
is a bioterrorism event, we will know about it as soon as 
possible, and we can control it quickly and prevent spread.
    There's also a laboratory part of this grant that will go 
specifically to help us upgrade our laboratory capacity so we 
can better identify, more quickly identify, agents of 
bioterrorism at the State level. We also want to upgrade local 
laboratory capabilities.
    There's also a section that deals with information 
technology, obviously an important issue that runs through 
every part of terrorism prevention and response. And we are 
dealing not only with actually connecting people and making 
sure they have good communication technology, but protecting 
that information and making sure that our information is 
secure.
    We found out with the anthrax event, I think, that risk 
communication or the ability of public officials and public 
health officials to communicate information quickly and 
accurately, is very important and can really mean the 
difference in an event between quick control and not-so-quick 
control of an event. We need to make sure that we have better 
training in risk communication in our public health and public 
official levels so that we can provide information in the best 
way possible to the public.
    The last area of focus in our grant is training and 
education. Obviously we have a huge number of not only public 
health people but also hospital staff to whom this is a 
relatively new issue, and we have a lot of training to do about 
the issue, about how we respond to this issue, importantly, how 
we work with all our different partners here, which public 
health staff are not as accustomed to working with as it should 
be, probably. We are getting better at working with our 
partners and knowing who those partners are, but that's still 
an area of need to do some training and education in.
    My final point that I would make with these funds is that 
they are intended to increase our infrastructure in public 
health. And I think in order to do that, a 1-year grant is not 
going to work. We need to hire personnel and have training that 
is very long-term. And to do that well, I think these funds, 
obviously, need to be longer than 1 or 2 years to actually 
improve our infrastructure in a long-term way. So I thank you 
for your time and attention, and I'd be happy to take 
questions.
    [The prepared statement of Dr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.026
    
    [GRAPHIC] [TIFF OMITTED] T7890.027
    
    [GRAPHIC] [TIFF OMITTED] T7890.028
    
    [GRAPHIC] [TIFF OMITTED] T7890.029
    
    [GRAPHIC] [TIFF OMITTED] T7890.030
    
    Mr. Horn. Well, you've done a good job because we hadn't 
had a chance to get into these grants since they have been 
trickling out over the last few months, and that's very 
helpful.
    So now let's move to the question and answer. What I'm 
going to do is have each of us, my colleague and myself, each 
have 10 minutes for questions and answers. And if there's still 
questions and answers to be had, we will do it again. So we'll 
start with my colleague here. You have 10 minutes.
    Mr. Tancredo. Thank you, Mr. Chairman. You know, I've got a 
couple of things that have come to mind as I listened to the 
testimony. And I, again, thank you all very much for a clear, 
concise presentation.
    Major General Whitney, in terms of the new role, the added 
role, perhaps I should say it that way, for the Guard and 
specifically in the areas that you mentioned in terms of 
airport security and that sort of thing, how has that affected, 
if at all, the morale of the people involved in terms of a 
change in what they see, I suppose, as their primary task or 
role? I mean, you know, other than--I mean, it seems to me that 
up to this point in time they saw themselves in a much more 
active role in case of an emergency, getting in and helping 
people, rescuing people, doing all the things that the Guard 
has been so good at doing, rather than standing there, you 
know, for hours and hours and hours and hours looking at people 
walking past them. And I just wondered how, if anything, that 
has affected the actual morale. Do you have any indicator of 
that?
    General Whitney. Sir, I can answer that fairly specifically 
as well as generally. No. 1, a general answer to the question 
is that, of course, we've been providing homeland security 
since 1636 throughout the Nation, so we are not--this is not a 
mission that is totally new to us. So we have done these types 
of things more than just the national defense mission where you 
have a soldier who is well versed in operating field artillery 
is all at once asked to come in and provide airport security. A 
trained military force is a very capable force in many 
different missions. Of course they're trained in combat arms, 
and so therefore airport security missions in support of law 
enforcement organizations would be something that would fit 
within their skill set.
    The specific answer to your question, though, how has it 
affected the morale of the soldiers who are involved in that 
mission is, it hasn't affected it adversely whatsoever. 
Actually, it's been a very good thing for most of our soldiers 
with very few exceptions. All of our soldiers who performed 
that mission did so with a very, very positive attitude about 
representing the U.S. military, specifically the Colorado 
National Guard and the U.S. Army, in a very visible manner in 
that airport security mission. So they're very proud to do 
that, very proud to stand in their uniforms providing that 
added sense of security that would come as a result of their 
presence.
    Mr. Tancredo. That's interesting to know. Just as I--Every 
single week as Mr. Horn, I'm sure, and I are required to do for 
the job and fly in and out of Denver twice a week and passing 
them each time, I always just thought to myself, ``I wonder if 
they just get so damn bored that they can't stand this 
anymore.'' And ``How do you stay alert?'' And ``How does it''--
that's a challenge, I think, and God bless the Guard for the 
good job they do. But it just always made me wonder about that.
    Ms. Mencer, the focus of most of the discussion here today 
was naturally on the reactive capacity of the State in case of 
an emergency. But you mentioned something that piqued my 
curiosity when you started talking about what I would have 
categorized, I suppose, as a preventive activity or 
responsibility that you may find in your own--because it's the 
office of preparedness, you're preparing for something as 
opposed to trying to prevent it from happening.
    So when you talk about the information sharing and that 
sort of thing, I just wonder to what extent do you actually see 
your role, the role of your agency, in this other capacity of 
preventive, and how specifically does that play out, if at all? 
What do you do in that regard?
    Ms. Mencer. Well, certainly at the State level we are not 
involved in investigations concerning terrorism. That would be 
the responsibility and purview of the FBI. But I think what 
we've learned as a Nation is that we need to have a better 
mechanism for collecting intelligence and to share it, and we 
are hoping that at the State level, by working with the local 
chiefs and sheriffs, we can have a mechanism for doing that, 
for going out and looking for things that they would have an 
interest in, and then being able to disseminate that 
information to the right people.
    We'd like to go beyond that, though, rather than just law 
enforcement, because I think, as Dr. Miller said, we have a lot 
of health workers out there that see things every day. We have 
a lot of first responders that arrive on the scene first, and 
they need to have some intelligence as well. So we are trying 
to develop a system where we can not only disseminate bulletins 
that come out from the FBI at a law enforcement level, but the 
Office of Homeland Security is actually looking at trying to 
have a tear sheet so that information can be scrubbed and 
disseminated to first responders as well, to the health care 
workers, to the first emergency responders who come on the 
scene, to the fire chiefs, so that they have a way of knowing 
what's going on too. So if there is an explosion, they might 
know that, gee, we've had pipe bombs discovered in other parts 
of the State. Maybe it's a criminal act rather than just a gas 
explosion.
    So those are the kinds of things we are looking at trying 
to facilitate. It's something that we haven't done well before, 
we haven't done at all in some cases, particularly with first 
responders. So it's a new way of looking at intelligence, and 
we are hoping to play a part in that to assist the 
investigators in their role with looking at what do we have in 
this Nation.
    Mr. Tancredo. Well, that's still sort of the reactive stage 
which you've just described, how do we react to the event, how 
quickly can we get the information to the people that will be 
there first to know what they're dealing with.
    But you suggest that this information sharing task that 
you've been charged with is the primary role of the preventive 
side of your activity. And so I guess I'm asking you to be even 
more specific, if you could, and exactly, No. 1, is that 
happening at all today? You mentioned, I think, that you are 
looking to ways in which that can occur. Is it happening now? 
Are you facilitating that and to what extent do you think that 
we have increased that degree of information sharing as a 
result of the agency's existence, your agency's existence? How 
much more do you look forward to doing that in that regard?
    Ms. Mencer. Indeed we are doing it today, and we started 
shortly after the office was formed. Right now we are cobbling 
together several different communications systems to 
disseminate information. So we now use our CCIC, our criminal 
system that we have in place, to disseminate bulletins and law 
enforcement sensitive information. We use the Colorado Law 
Enforcement Information Network, or CLEIN, to disseminate 
information as well. We use RISSNET, which is an Internet-based 
system to disseminate information. We also use an e-mail system 
that's developed by my Director of Fire Safety that 
disseminates information that isn't law enforcement sensitive 
to fire chiefs and emergency first responders. So we indeed 
send this out, and we haven't done that before. So that has 
been something new. We've received positive comments from local 
law enforcement agencies and from first responders, that for 
the first time they're actually getting some kind of 
intelligence information.
    So that's been working well, but we need a better system 
instead of trying to use all these different systems, and we 
are working with the RISSNET people in a system that the 
Colorado State Patrol already has in their possession, 
Dialogic, which is a communicator system. What we found with 
chiefs and sheriffs is if their information comes in via the 
Internet or via their teletype machine or whatever system they 
have, they don't know that it's there. There's no mechanism 
with their own business practices for the clerical person when 
he receives it to say, ``Wow, this is something significant; 
the chief needs to see it.'' So a lot of times it sits there. 
So the Dialogic system, if you plug your numbers in, your fax 
number, your pager, your cell phone, your home number, it 
automatically begins to call people and says, ``You need to 
check your fax machine, your Internet message,'' whatever. And 
so then they know. And it keeps calling them until they 
respond. So it's a very annoying system, but it works.
    And so we are looking at using the money from the U.S. 
attorney's office, which they have been provided, and we have 
requested some funding to hire a person that will do nothing 
but operate this Dialogic system so that we do have a 
communication effort where we can alert people that there is a 
message coming in and they need to respond to it.
    Mr. Tancredo. And from what agencies are you receiving most 
of the information that you are presently then disseminating?
    Ms. Mencer. We get information from the FBI on their 
intelligence bulletins that they disseminate weekly. We also 
get the same information----
    Mr. Tancredo. Excuse me. Now, those bulletins would not 
have otherwise--let's assume that your agency didn't exist for 
a moment--they would not have otherwise been disseminated?
    Ms. Mencer. They do. They are disseminated on our CCIC 
system, which I think would have occurred anyway. Also the NLET 
system, which the FBI uses, and we use that as well.
    Mr. Tancredo. So that now that is not happening that way; 
you sort of have taken over that?
    Ms. Mencer. Well, no, they--Do you disseminate on NCIC? I 
don't know if you do or not. I think it's CBI now.
    Mr. Carballido. Well, we do from headquarters, initially, 
and then there's further dissemination from CCI, and sometimes 
we also disseminate from FBI Denver BOLOs, be on the lookout 
for this, etc., more specific operational tactical information, 
and that goes directly to the local law enforcement agencies.
    Mr. Tancredo. What I'm trying to figure out here is exactly 
what the role is in term of this information dissemination for 
your agency. And is it truly a coordinating agency or are you 
just another part of the dissemination picture? I'm not clear 
on that exactly.
    Ms. Mencer. I think it's both. I think what we've done is 
create this whole other layer for first responders and for the 
fire chiefs that didn't exist before. And they had no 
information flow to them at all. So, you know, that's something 
that we've created in the new office and we are trying to 
enhance. And if the Office of Homeland Security proceeds with 
their goal to have that tear sheet, it will be much facilitated 
because they'll provide scrubbed information, if you will, on 
the bottom part that we can disseminate to first responders and 
then the law enforcement sensitive stuff at the top. So we are 
hoping that will make our job a lot easier as well.
    Mr. Tancredo. So, so far, it's mostly sort of--right now 
would you consider it to be a top-down information sharing 
process? You are not getting information, let's say, from 
sheriffs' departments that you then--coming up to you that 
you--I guess it's not--I don't know whether it's correct to say 
coming up to or down from, but are you getting it and are you 
sharing the information that they provide to you?
    Ms. Mencer. That's what we need to work on specifically, 
and that's what the seven districts will do, and the CBI 
component of the those seven districts will work with the 
chiefs and the sheriffs in collecting information that then we 
can disseminate statewide. For instance, if District 1 says, 
you know, we've received some information that's some driver's 
licenses have been stolen, and then we'll be able to send that 
out to the seven districts, and we'll coordinate the 
intelligence, bring it to the FBI's attention so that they can 
see is this something we need to be concerned about or not.
    So as we work on this process of getting these districts 
organized and reaching out to the chiefs and the sheriffs, 
we'll have a method of not only disseminating it from the top 
down, but then disseminating it from the bottom up, which we 
need to do and which we haven't done very well as a Nation, I 
don't think.
    Mr. Tancredo. Well, I appreciate the chairman's indulgence 
here on this because I'm just trying to get a good, clear 
picture of exactly what it is that you are charged with doing 
and how effectively it has, you know, begun to operate so far 
and where you think you want to go with it.
    It is confusing because there is this, you know, sort of a 
generic application of the word ``dissemination,'' and we use 
it a lot, and we talk about the need for information sharing, 
and are never sure if just the creation of an agency that is 
supposed to help in that purpose can actually be that single 
source or it just becomes another one of the things that people 
sort of look forward to hearing from periodically, people sort 
of down the line from it. And it's a challenge, I think, 
enormous challenge, of course, to figure out exactly what role 
you're going to play that isn't being played by some other--by 
the FBI and other Federal agencies.
    But let me take it one step further then. To what extent do 
you communicate or have communications with other Federal 
agencies that have responsibilities for internal security, 
specifically, let's say, the INS, Customs, even more 
specifically, Border Patrol; perhaps that wouldn't be the one 
because, although they do have, of course, internal security 
apparatus, to a couple of agents, anyway, do you have any 
involvement with them whatsoever?
    Ms. Mencer. Well, we are a part of the CTAC, which was 
mentioned earlier, the counterterrorism committee that meets, 
the State patrol, so we do have participation with other 
Federal agencies on that. I'm in regular communication with 
ASAC Carballido, so I speak on a frequent basis with the FBI 
because I have a relationship with them, obviously, which I 
think is a good thing at this point in our Nation's history, 
particularly in this State that I do have that relationship 
with the Bureau, and I appreciate that.
    And we, as a State, I don't see our role as coordinating 
with Federal agencies as much as I do with trying to coordinate 
the local folks out there. And I think because we in law 
enforcement are particularly territorial with the information 
we collect and receive, that we do need to begin to share more 
with sheriffs, sharing with the chiefs, and chiefs sharing with 
the sheriffs, and that kind of thing, and I see the State's 
role more as that coordination piece. There is an inherent 
distrust, I think, in law enforcement between local police 
agencies and the Federal agencies, and I think that is historic 
and has been going on for a long time. I don't think we are 
about to change that quickly. But I don't see the Federal 
Government being able to come in and do that. I think at a 
State level it's much easier for us to say we all need to work 
together in this, and then help with that intelligence piece to 
provide information to the FBI. But, as Mr. Carballido and I 
have discussed, it needs to go both ways, and the FBI needs to 
begin to bring things down as well, and hopefully we'll act as 
a conduit for that too.
    Mr. Tancredo. Maybe the creation of the Homeland Security 
will help--hopefully that will help in this rather confusing 
and sometimes convoluted process.
    And the last question I have is for Dr. Miller. There is an 
agency I visited sometime ago, and I apologize because it slips 
my mind, but it is located at Buckley. It's unique. Maybe I 
shouldn't say unique, but there may not be more than one or two 
others around the Nation. It has the ability to respond 
immediately to an event, chemical, biological type of event, 
and tell the State exactly what it is with which we are dealing 
with that particular agent. And I'm just wondering if--I didn't 
hear anything about it, I guess, or any coordination of 
activity with that. It seems like it was an enormously--When I 
visited, I thought to myself, ``God, what a great asset to have 
here in Colorado,'' because I think it's----
    Dr. Miller. Are you talking about the civil support team?
    Mr. Tancredo. That's it.
    Dr. Miller. That's General Whitney's. And, actually, we 
work very closely with them. If they're evaluating, say, an 
anthrax threat, we are often talking to them. And our lab 
serves as a confirmatory lab. If their testing showed that they 
thought they had some agent, our lab would test it and confirm 
it. So we are very familiar with them.
    Mr. Tancredo. General, maybe just to share with the 
committee what the responsibility--because I thought that was 
just so great when I was there, I thought, you know, this is in 
Colorado only or very few States, anyway.
    General Whitney. Well, no, sir; actually there are 27 teams 
right now. We were the very first team organized, very first 
team certified. We've got the best team in the Nation here in 
Colorado. I'm not biased as all in that.
    Mr. Tancredo. Tell us exactly what its responsibility is.
    General Whitney. It's a team--The designation is Weapons of 
Mass Destruction Civil Support Team, and we are team No. 8, is 
our designation, because of FEMA Region VIII as to what we were 
originally assigned to.
    Specifically, they are designed to take this 22-person team 
to a site that has been designated as a possible nuclear, 
biological, chemical, radioactive, or even a high explosive 
site, to determine if there is any type of agent there that 
requires special protective measures as well as to mitigate 
whatever it is that they find. They have tremendous reach-back 
capability with a communications suite, a truck that has every 
kind of communications gear you can think of. They have a 
tremendous capability to analyze on the scene with a mobile 
analytical laboratory, which is probably what you saw when you 
went out to Buckley.
    It's a one-of-a-kind-in-the-nation capability for this 
team, obviously, for the 27 teams that have this. So it's a 
tremendous asset for any community to have in place already, 
but it's also an asset that can be deployed anywhere in the 
Nation, whenever the need arises.
    Mr. Tancredo. Again, I really appreciate the chairman's 
indulgence here.
    Mr. Horn. No, I think when you've got a good topic, keep 
going.
    Mr. Tancredo. Well, that's it. I guess I'd say that the one 
thing I remember about that tour is that there was a hope on 
their part that there would be a lot more knowledge, general 
knowledge, about their existence and about their ability to 
actually coordinate than evidently was the case then. They felt 
that they were somewhat unused, that there was--you know, here 
we are, this great thing, and how many people even know, how 
many even local agencies know that we are there to respond if 
they have something like that. So that's why I kind of wanted 
to bring it out here, and, hopefully, I don't know, just get 
people to be more aware of its existence which, again, seemed 
like a great asset.
    General Whitney. Sir, I'm not sure how long ago you visited 
the organization out at Buckley.
    Mr. Tancredo. It could have been a week ago or 2 years ago, 
in my mind, I don't know; they all kind of fall together.
    General Whitney. Within the last 8 months or so, they have 
been very active and responded to numerous calls in support of 
the FBI as well as local agencies. So I think we have done, I 
think, a much better job in advertising their capabilities to 
all those responders that may require their capability.
    Mr. Tancredo. Thank you, General. Thank you, Mr. Chairman.
    Mr. Horn. Let me followup in another way involving Ms. 
Miller and Ms. Mencer and also the general, and that is, what 
do we have in hospital capacity should there be some attack of 
biology, chemistry, nuclear, whatever? And I just wonder to 
what degree and I guess we will address that in the other panel 
and get a lot of knowledge there. But what's your figure on 
that?
    Dr. Miller. Well, actually, surge capacity in our hospitals 
is a huge issue and there are few empty beds right now, so this 
is a major problem in the case of a bioterrorism event or any 
other event that requires a lot of hospital beds. And one of 
the major objectives of this hospital grant is to create 
regional hospitals that will serve 500 patients, which is far 
beyond what we could do today. So we need to be creative and 
think of ways and places where you could actually take care of 
500 patients in a region if you had to.
    And people are also looking at ways to increase bed 
capacity in the case of an event and working out scenarios for 
that. I think probably Mr. Wall could give you a lot more 
detail about that question, but it's obviously an issue and one 
that will be addressed in the hospital preparedness grant.
    Mr. Horn. How about the Veterans Administration, are they 
involved in these committees and all the rest?
    Dr. Miller. They are.
    Mr. Horn. How about it, General, are they at the table when 
you're coordinating things?
    General Whitney. Sir, we don't really have an interface 
with the Veterans Administration other than our veterans 
affairs organization we have within the Department of Military 
and Veterans Affairs. Most of the interface that we have is the 
same thing that we have with public safety as well as public 
health and environment. So we go to the same meetings that they 
go to, but we don't have a direct interface with them.
    Mr. Horn. When we started with the first of these series, 
it was in Nashville, Tennessee, and Vanderbilt Medical School 
and Hospital. And we had various diversions trying to get the 
rural parts of Tennessee involved as well as the urban. There 
is an incident where you had some strange thing that's attacked 
people, and they don't quite know what it is yet, and they want 
to bring it into an urban hospital and land the helicopter on 
the roof. We found out that even with all of the military forts 
and camps and you name it in Tennessee, the military 
helicopters could also sit on the roof. However there was no 
communication between them because of the difference 
frequencies.
    And I'm wondering, General, have we got any feeling around 
that we've got some frequencies where people can go and involve 
the law enforcement very rapidly and so forth? How much of a 
problem is that?
    General Whitney. Well, that is a significant problem. We 
have military frequencies, normally VHF and UHF radios and some 
FM radio capability in our military aircraft helicopters, as 
you talked to. We have significant Army aviation capability 
here in the State of Colorado within our Colorado Army National 
Guard.
    However, we also have the capability to talk to other local 
responders through a digital trunk radio that has been issued 
to the Colorado National Guard, and we can give those to a 
helicopter that, say, has to land on the roof of a hospital 
somewhere if we need to. OEM has done a very good job, I think, 
of making sure that all the State emergency responders can 
communicate with each other in that respect.
    Mr. Horn. Well, that's encouraging. I'm also interested in 
where we stand with laboratories other than CDC and other than 
the State of Colorado. Is there a use for the the various 
colleges' and universities' laboratories? Also the community 
colleges and the high schools if you're out in a rural 
situation, because Colorado is spread out and it's long miles 
to get to some of the things that we ordinary go and just think 
it's everywhere as in urban America or urban Colorado. How do 
we help the people in the rural part?
    Dr. Miller. That's a very good question, and the issue of 
surge capacity is also a huge issue. It doesn't take a lot for 
laboratories also to become overwhelmed if there's an event. 
And one of the things that we are doing within our bioterrorism 
grant is trying to bring all these laboratories together, the 
hospital laboratories, the CSU laboratories, the university 
laboratories. We've done a survey and tried to find out who has 
the capability, who needs to be trained in order to understand 
what tests you can do to rule out a bioterrorism agent, who 
needs to be trained about how to handle these things carefully 
because, obviously, you do. So that's a part of our work, to 
try and reach out to these other labs.
    And we recognize the rural issue too, and that's why we are 
trying to increase the capacity in our local health 
departments, like Mesa Health Department, Weld Health 
Department, El Paso; even though that's a metro area, they 
serve a rural area. So we are trying to address that issue.
    Mr. Horn. Now, CDC, as I believe, has a certification 
program in some of these laboratories. Is there a range of 
complexity? How does it work?
    Dr. Miller. Yes, there is a range. There are level A, B, 
and C laboratories. The State lab is a level C. That means we 
can quickly identify bioterrorism agents using advanced 
molecular methods. Level B laboratories have less advanced 
methods. Level A laboratories are basically clinical labs where 
they do hospital sorts of work. At that level lab, really the 
lowest level lab, they need to be able to rule out an agent, 
and say, ``I identified it as X, therefore I know it's not 
anthrax.'' If they can't rule it out, they need to know how to 
package it and get it to us or get it to a level B laboratory 
where further work can be done.
    Mr. Horn. Is there an overwhelming feeling yet in the 
Atlanta CDC where they're just overcome with people sending 
samples in and all this. And will that get done or will we have 
to do it in another way by using the States and the localities?
    Dr. Miller. I think during the anthrax event that was 
definitely the case. Laboratories were overrun. And people are 
definitely trying to figure out how to avoid that if we have 
another threat like that. And one of the things we need to do 
is work closely with the FBI, and we did that in Colorado. We 
need to make sure we have good threat assessment and that our 
laboratories are only used when there's a credible threat.
    Some States didn't do that; they allowed every specimen 
under the sun into their labs, which is dangerous, first of 
all, because those specimens weren't screened well, but it also 
used up their capacities so that they couldn't respond if there 
had been a credible threat. So I think we actually did that 
pretty well in Colorado. We were not completely incapacitated 
during the anthrax event, and we want to continue to maintain 
that kind of policy and work closely with the FBI to do that.
    Mr. Horn. Do you agree, gentlemen from FEMA and the FBI, on 
this?
    Mr. Carballido. I agree wholeheartedly. The protocols that 
we set in place and worked very hard on were instrumental in 
the screening process, absolutely.
    Mr. Horn. Has that been done around the Nation or is it 
just Colorado that's doing it?
    Mr. Carballido. It has been done in many places but not 
everywhere.
    Mr. Horn. Because of your protocols which you're very 
strong on, I come from Los Angeles County. We have had 
protocols, compacts, contracts, whatever you want to call it, 
for law enforcement, for fire enforcement, all of that, so we 
can help each other even if it's 500 miles north in the Santa 
Clara Valley or Central Valley and up to Stockton so where they 
need help. So do we have a lot of that here in Colorado?
    You've got the big city here. And what about with the 
terrible things that have happened in a lot of these States, 
and one of them is Colorado, in terms of the fires and all, 
which puts tremendous pressures on trying to get something 
done. What do you hear on that and what do you think about it?
    Mr. Carballido. We were not involved in the fire issue, 
sir. That, we were not involved in.
    Mr. Bakersky. The protocols that we have in place for 
support from other Federal agencies, other State agencies. As 
far as the FEMA Region VIII, because of western-type climate, 
you know, large concentration in small areas of population, a 
lot of the protocols for mutual aid have been in place. A good 
example that we had, we actually tested most of our protocols 
during the Olympics in Utah. We brought in all of our 
resources, not just Federal assets, but also additional State 
assets, using the protocols--like Dr. Miller was mentioning the 
anthrax--that were actually used during some of the anthrax 
scares, during the Olympics.
    So I think in this region we are fairly fortunate because 
of some of the activities that we've had. We've had the 
protocols in place between the law enforcement, between the 
emergency management agencies. Like with the Pope's visit, the 
G8 visit, the Olympics. So we've had a lot of real-world events 
that helped develop this partnership between Federal/State/
local, not only in the law enforcement side of the house, but 
also in the emergency management/public safety side of the 
house. So they've been tested and they work fairly well. And a 
lot of our protocols are basically prototypes for some of the 
rest of the Nation, and also the activities that we did in the 
Olympics are now prototypes for other agencies throughout the 
United States.
    Mr. Horn. Some people in other States have said there's 
just too much money being spent on planning rather than 
providing necessary equipment and training for those on the 
front lines of emergency response.
    Can you give us a feeling of what's happening there? Is it 
just planning or are we getting the goods so people can do 
their job, be they a first, second, or third responder? FBI? 
FEMA? Anybody else want to take it?
    Mr. Carballido. I would simply say that planning is also 
paramount. I don't know if there's a balance between equipment 
and planning in place, but planning cannot be underestimated. 
We exercise the plans, and I think that's why we were 
successful in responding to the anthrax threat, which was 
major, as you well know. So I really don't know if there's a 
balance that exists in Colorado between equipment, training, 
and planning, but planning is paramount.
    Mr. Bakersky. One of the things we looking at with the new 
grant process is just not the planning, but the planning also 
includes equipment. When we are saying planning for equipment, 
we are looking as the interoperability of the equipment. We 
want to make sure that we have a standard. That's what we are 
trying to do with the new grant process is setting up a 
standard. Resource typing, so that if you request a certain 
thing from another area, you're getting the same. Some of the 
problems that you have in equipment, even on September 11th, 
things just as easy as hose thread. You had on Staten Island--
--
    Mr. Tancredo. As what?
    Mr. Bakersky. Hose thread, thread on the end of a hose. The 
Staten Island Fire Department does not have hose that can be 
connected to New York City hydrants. So what they're trying to 
do--So you have the planning in equipment, but what you're 
trying to do is provide a standardization of equipment that 
could be used throughout the United States. A good example----
    Mr. Horn. That's fascinating to me. These were borough 
differences of the five boroughs or so?
    Mr. Bakersky. Yes, sir.
    Mr. Horn. We do know Staten Island is different.
    Mr. Bakersky. Yes, sir. I'm from New York originally, so--
--
    Mr. Horn. And they didn't know about that until the 
problems came?
    Mr. Bakersky. Probably not because they really did not--New 
York City being such a large organization, they didn't have 
mutual aid compacts in place. When you have a fire department 
of 18,000 individuals, they've never had an event that was 
beyond the scope of their capability, that they could not 
handle it with their own internal structures. September 11th 
came down and it did raise some issues.
    There's other examples you could use, like scuba gear. You 
can go from one end of the country to another end of the 
country and the regulator on scuba gear is the same. You go to 
the fire fighting community and MSCA and 3M and SCBA equipment 
all might be different threads. So that's one of the things we 
are looking at besides the equipment, to have the planning to 
be sure that you have the interoperability of the equipment 
that can be used in response to an event.
    Mr. Horn. Well, I'm glad you mentioned that because that's 
news to us. But you never would hear it in most places in 
America anyhow unless you've seen it there.
    Any other little things like interoperability not 
happening? Or do you all have interoperability in Colorado? 
You're either sick of hearing it or is it done? And are there 
still gulfs somewhere that aren't getting treated?
    Ms. Mencer. Mr. Chairman, I also serve on the national task 
force for interoperability as well.
    Mr. Horn. Boy, am I going to follow you around.
    Ms. Mencer. In my spare time I do that. And I'm happy to 
report, after listening to the other States that are 
represented on that task force, that we are far and away above 
many other States with our interoperability issues, and I think 
that's due directly probably to Columbine, which emphasized to 
us that we needed to be interoperable.
    We have the digital trunk radio system in the State. We 
have been progressing through different sectors of the State to 
accomplish that. Unfortunately, our funding was stopped this 
year because of our fiscal problems again. But once we get our 
funding reestablished, we'll continue with our progressing 
across the State with getting our DTR capabilities up. But, as 
you know, it was just announced earlier this week, Senator 
Campbell effected this system that will be like a patch system 
for different radio systems so that those areas of the State 
that are not interoperable, they will be able to use this 
system to patch through and get them connected. So that is not 
a long-term solution to the problem of interoperability but is 
a short-term fix until we can get the digital trunk radio 
system up all over the State. So we are working very hard at 
that, and we have made great progress at that in the last 
couple of years.
    Mr. Carballido. If I may add, Mr. Chairman, we also have a 
similar piece of equipment that we obtained--we were one of a 
number of offices in the FBI--from our research facility that 
accomplishes the same purpose, and this was done after 
Columbine as well.
    Mr. Horn. Now, how much does this cost in terms of those 
that have equipment and need to be changed? And when the 
Federal Government gives a grant out, do you think they ought 
to say and demand it, that if you're going to use the 
taxpayers' money, it ought to be the right way, and figure out 
what are you going to do with the equipment that is not doing 
very well? How do you handle that?
    Ms. Mencer. Mr. Chairman, this national task force is 
looking to make statements to bring forward to the Office of 
Homeland Security, to the President, stating what they believe 
are the best practices as far as interoperability goes.
    I was amazed to learn when I attended my first meeting of 
this task force that some States don't even see the need for 
interoperability, which I think is amazing. But, of course, 
most States haven't had a Columbine incident to reinforce the 
necessity of this.
    I think they will be coming forth with the statement 
encouraging that all States go to some level of 
interoperability, 800 megahertz, 700 megahertz, whatever it 
happens to be for that State. I think we will see all States 
coming on board with this eventually. But, again, I think 
Colorado is far ahead of that curve, and I'm happy that it is.
    But it is a continuing issue. I think the Office of 
Homeland Security is looking at earmarking some funds 
particularly for interoperability, and that may be what we need 
as a State to continue with our progress with getting the other 
sectors up in line. So I'm hopeful that we'll see some funding 
in that regard.
    Mr. Horn. Well, that's good because there's been some 
concern about the department created, that they haven't gone 
for standards against which one can then know we've done 
something right or we haven't. And so we are going to urge that 
a little bit and give it a nod.
    There's a number of questions we have here that we might 
want to use for you. And let me just say, if you had 30 seconds 
with the President of the United States, went into his office, 
what would you say to President Bush is the most important 
thing on dealing with terrorism?
    Let's just go down the line. General?
    General Whitney. Well, sir, I guess as it relates to my 
specific mission area, I would ask him how we could implement 
new equipment, new training, and new parts of our organization 
in order to be able to meet the challenges of this terrorist 
threat.
    Mr. Horn. How about it, Ms. Mencer?
    Ms. Mencer. Well, I would first compliment him, I think, on 
what he's attempting to do with the Department of Homeland 
Security. I think focusing existing resources is what we need 
to do. And I think the resources are there, the capabilities 
are there. We need to have a place to focus those, and I think 
he's doing that, as we've tried to do in the State as well.
    Mr. Carballido. Mr. Chairman, I think I would ask the 
President for a great deal of money and technology that exists 
presently to create data bases throughout the country that 
could better coordinate all the information that we all receive 
at the various levels, to better connect the dots and improve 
on our intelligence base, because for us that is the key to 
prevention and to be in a proactive posture so that we don't 
have to involve ourselves in crisis management.
    Mr. Horn. Mr. Bakersky.
    Mr. Bakersky. I would stress that we continue the 
initiatives that were started with the fiscal year 2002, 
supplemental fiscal year 2003, providing resources, both 
monetary and personnel resources, to States and locals, which 
basically are the first responders. They're the individuals 
that are going to be putting their--everything on the line. 
When we have an incident, we have to make sure that we have 
funding streams in the initiatives that are started and 
maintained for the next 3, 4, 5, 6, however many years it 
takes.
    Mr. Horn. Dr. Miller.
    Dr. Miller. I would panic, first of all, but----
    Mr. Horn. No, you wouldn't. He's a really friendly guy.
    Dr. Miller. He does seem like a really friendly guy.
    I would echo some of those comments, and I would stress 
that this is really a new role for public health. And if we are 
really going to develop this capacity in public health to 
respond to bioterrorism and to be part of emergency plans, we 
need long-term infrastructure support.
    And I would also try and frame public health as part of the 
first responder community. I think it's easier to understand 
that way that we also need to be prepared to be first 
responders, and that's a new role.
    Mr. Horn. Very good. Any more thoughts?
    Mr. Tancredo. Nothing more. Thank you, Mr. Chairman. Very, 
very interesting.
    Mr. Horn. And we have with us the General Accounting 
Office, and at the end of the next panel. We bring them here 
because we've got over 50 blue books already, and it's very 
worthwhile material, if you don't have it, and I would hope GAO 
would send it to all of you. And we ask them, what haven't we 
done? Where are the openings that we don't know what we are 
talking about? And then go back to it. So that will come up 
after the next panel.
    So you've done a wonderful job, all of you. And I think 
Colorado seems to be in good hands. So we will now move to 
panel 2.
    [Recess.]
    Mr. Horn. Recess is over. And before we begin with Panel 2, 
there is a statement, a very fine statement, by Representative 
Mark Udall, and I would like the reporter to put that following 
the Horn and Tancredo statements at the beginning of the thing. 
We'll put Mr. Udall's in as it is, and she will give it to you.
    I just want to make sure everybody is here. We've got Mr. 
Wall, Mr. Sullivan, Lieutenant Hoffner, Lieutenant Wicks, and 
Mr. Posner, so you know this procedure. Since it is an 
investigative committee, if you have any staff to support you, 
have them take the oath so I don't have to do it in the middle 
of the areas. So if you'll raise your right hand.
    [Witnesses sworn.]
    Mr. Horn. The five witnesses have affirmed the oath, and we 
will begin with Mr. Wall. If some of you haven't been here in 
the first session, we were going right down the line in order. 
And as we call your name, your whole, full written statement is 
automatically put in to the report, so you don't have to give 
every word in it, but we would like to have you give us 5 
minutes or so, or maybe 10 sometimes, if it's that wonderful, 
and we would like you to give us the summary of it, and then we 
can get into the question period at the end, and we'll do that 
in each case. We've looked at the documents; they've been very 
good.
    And so we'll start right now then with Larry H. Wall, 
president of the Colorado Health and Hospital Association.

  STATEMENT OF LARRY H. WALL, PRESIDENT, COLORADO HEALTH AND 
                      HOSPITAL ASSOCIATION

    Mr. Wall. Mr. Chairman, thank you very much for the 
opportunity to be here. In addition to my responsibilities as 
president of a hospital association, I'm also a member of the 
Governor's Epidemic Emergency Response Committee, and I chair 
the Hospital Preparedness Advisory Committee. I appreciate the 
opportunity to testify before you this morning.
    September 11th has obviously created a new world for all of 
us, and that includes hospitals. Hospitals as first-line 
responders have always been the foundation of a response to the 
medical needs of patients, be they personal or as a result of 
natural disasters or flu epidemics.
    Historically, the resources of the hospital system have 
been adequate to meet the needs. The potential use of weapons 
of mass destruction and bioterror agents, however, results in 
the need for a whole new level of preparedness. There are at 
least eight areas that need to be addressed. One, communication 
and notification, and we've heard a lot about that already this 
morning. Communication for hospitals is as critical as it is 
for other organizations and agencies. Disease surveillance and 
reporting and laboratory identification. That was referred to 
earlier as part of the intelligence network, which I think is 
an important issue. Personal protective equipment. Facility 
enhancements. Decontamination facilities. Medical, surgical, 
and pharmaceutical supplies. Training and drills. And mental 
health resources. At this particular point the resources are 
not adequate to address all of these needs.
    Just to use a very simple example, the 2-year HRSA 
allocation for Colorado is approximately $4.5 million, or 
roughly $70,000 per hospital. The estimated cost to address the 
communication issue alone is in the neighborhood of $3.5 to 
$3.7 million, leaving little for the remaining seven areas of 
need.
    The current allocation of dollars, while it is very much 
appreciated, is really inadequate to meet the needs with regard 
to hospital preparedness. I think it's important to understand, 
however, that the public can certainly be assured that 
hospitals will be as prepared as they possibly can within the 
constraints of the available resources. Neither Congress nor 
the American public should assume that at the current level of 
Federal funding that hospitals will be fully prepared to handle 
the outcome of a significant event. We are significantly ahead 
of where we were on September 11th, and progress on 
preparedness will continue to be made. But more funding is 
needed if hospitals are to meet what I believe are the 
preparedness expectations of Congress and the American public.
    I want to thank you for the opportunity to testify, and 
I'll certainly be happy to address specific questions with 
regard to hospital issues, some of which were raised in the 
earlier testimony.
    [The prepared statement of Mr. Wall follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.031
    
    [GRAPHIC] [TIFF OMITTED] T7890.032
    
    Mr. Horn. Thank you very much, Mr. Wall. We now have David 
B. Sullivan, acting director, Office of Emergency Management 
for the city of Denver.

  STATEMENT OF DAVID B. SULLIVAN, ACTING DIRECTOR, OFFICE OF 
              EMERGENCY MANAGEMENT, CITY OF DENVER

    Mr. Sullivan. Good morning. Thank you for the opportunity 
to speak to you today. The events of September 11, 2001 have 
greatly exacerbated the threat to this country from terrorist 
attacks. Congress's willingness to provide leadership, 
direction, and funding to support our preparedness efforts has 
been greatly appreciated. We at the local level are thankful 
for the support we've received from Congress and the 
administration. Our efforts in Denver began prior to September 
11th with the Nunn-Lugar-Dominici legislation. The equipment, 
training, and support we have received through that program has 
greatly enhanced our preparedness; however, there is still a 
great deal of work to be done.
    The $3.5 billion allocated for first responders in the 
President's homeland security strategy is truly needed, and we 
applaud the efforts of the administration and Congress, but 
there are some concerns. First and foremost is the competitive 
nature of the grant process that pits local first responders 
against each other for the Federal funds. This has been a 
problem in the past with the Department of Justice grants and 
continues to be troublesome.
    Terrorism events will tax the full resources of local 
jurisdictions, States, and the Federal Government. We must be 
prepared to respond in a comprehensive manner utilizing all 
resources available. The burden for response lies squarely on 
local jurisdictions. State and local Federal resources are 
sometimes hours or days away. The capability of the initial 
response is what will save lives. Rather than fund specific 
first responders, funding should be made available through 
local jurisdictions to provide for all their needs rather than 
preidentified disciplines. The breakdown of the funding in the 
homeland security strategy identifies how the moneys will be 
distributed. The distribution is similar to past DOJ programs 
in that only 9 percent of the $37 billion allocated for 
homeland defense will go to local jurisdictions. Of the moneys 
going to the States for pass-through funding, 25 percent will 
remain at the State level for whatever requirements the States 
determine. However, the 75 percent passed through to local 
jurisdictions are predetermined, fitting into defined 
categories of planning, equipment, training, and exercises. 
Amounts are predetermined for each category and the State 
determines priorities. Unfortunately, each jurisdiction's 
different, with different threat levels, different levels of 
preparation, and different resource needs. As such they should 
be given the same opportunity the States have in determining 
how the moneys are utilized.
    Emergency management, by its very nature, must integrate 
and collaborate with all the players involved on issues of 
domestic preparedness. Funding is required not only to provide 
initial resources, but also to create an infrastructure of 
domestic preparedness that will be a long-term integrated 
component of the day-to-day operations of an emergency 
management system. Federal support for local emergency 
management programs have slowly eroded over the past 15 years 
to the point where many emergency management programs have 
either been dissolved or incorporated into other supplemental 
responsibilities of another municipal agency or department. 
Local emergency management programs have always been the 
forgotten stepchild of other public safety agencies in terms of 
funding and authority. While the various and numerous Federal 
agencies have provided grants to traditional first responders, 
there has not been funding directed to support local emergency 
management agencies. Federal funds to build, maintain, or 
improve local emergency operation centers ended nearly 10 years 
ago, and there are little or no local funds to pay for capital 
improvements to such centers. If local communities are truly 
expected to be the first line of protection in the new homeland 
defense system, they must be properly equipped to facilitate 
efficient and effective decisionmaking in an adequate emergency 
operations center. Funds are needed to immediately--funds are 
needed immediately to upgrade and establish a full functional 
EOC in each community.
    While we at the local level support the enhancement of 
homeland security on a national level, we must never lose sight 
of the normal day-to-day emergencies and disasters that affect 
and could potentially devastate our communities. Attention and 
resources for floods, tornadoes, winter storms, wildfires, and 
other natural technological hazards must not be diminished at 
the expense of today's hot topic of weapons after mass 
destruction and homeland security.
    As local emergency managers, we stand ready to assist by 
coordinating the planning, training, and resources of our 
jurisdictions in developing comprehensive readiness programs. 
We look to you for assistance in developing these programs, 
recognizing the critical coordination role that local and 
emergency managers play in developing readiness programs. We do 
not operate as single disciplines when preparing for or 
responding to natural disasters, and we certainly should not do 
so within the arena of terrorism.
    Again, I thank you for the opportunity to speak to you 
today.
    [The prepared statement of Mr. Sullivan follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.033
    
    [GRAPHIC] [TIFF OMITTED] T7890.034
    
    [GRAPHIC] [TIFF OMITTED] T7890.035
    
    [GRAPHIC] [TIFF OMITTED] T7890.036
    
    Mr. Horn. Thank you, Mr. Sullivan. Lieutenant Roger E. 
Hoffner, Arapahoe County officer of emergency management. Glad 
to have you.

   STATEMENT OF LIEUTENANT ROGER E. HOFFNER, ARAPAHOE COUNTY 
                OFFICER OF EMERGENCY MANAGEMENT

    Mr. Hoffner. Good morning, Mr. Chairman. Thank you. I 
apologize I don't have a prepared presentation. I was under the 
understanding that my sheriff was going to be presenting this 
morning, so I bowed to him.
    What I'd like to do is--and what Dave Sullivan said, I 
agree to wholeheartedly. The emergency managers in the 
metropolitan area work very closely together, and what he said 
is right on track. I'd like to say a little bit about where I 
came from before I get to where we are and where we are going.
    In 1996 I became the emergency manager for the county. 
Before that I was a deputy for over 15 years. And up to that 
point the only thing I knew and was aware of is what the 
responsibilities were for our response on the street to those 
everyday calls. I had no understanding or very little about 
incident command. I had very little understanding about 
preparedness for big disasters, none of that. And when I took 
the emergency management position, I found out that the job was 
probably more massive than I ever imagined, and it's more 
massive than I still imagine. I have never had a job that I 
haven't been able to master in 6 months to a year, and I've 
been doing this for 6\1/2\ years, and there are days I still 
feel lost. It's an incredible job.
    In 1998 I had an opportunity to go to an exercise sponsored 
by the Department of Energy in Las Vegas. It was then that I 
started learning about PPE, personal protective equipment. They 
talked about the Quick Masks that every capital police officer 
in D.C. was wearing on their belt. I took that back and decided 
to do a grant to try to get gas masks. Because if we look in 
most of our police cars, they'd be lucky if they had an old 
military gas mask that's a false sense of security; they have 
nothing.
    So with that money I applied for, $45,000, I got 400 gas 
masks. And the other thing that went with that is I tried to 
find out from government what was the best thing I could get 
for my money. And they all said, ``Well, now, we could give you 
a list of things, but we can't tell you which one because 
that's a conflict of interest.'' Well, I found that very 
frustrating because I wanted to spend the best money that I 
could, get the most I could out of it, and be able to protect 
my people. So I did my own research and I bought 400 masks with 
the best chem/bio filter they had and distributed it to our 
people in Arapahoe County, but I was still 1,000 gas masks 
short of what I needed. When we started----
    Mr. Horn. What do you have now?
    Mr. Hoffner. Right now I have about 850 bags out there, and 
that's where I'm going to go to. One of the things that we 
started with, where we really picked up our information, is the 
federally funded Top-Off 2000 exercise that came to Denver with 
the biological release. I was involved in that from the 
beginning with the planning phase, up through the incident 
command, and with the hot wash at the end to do a critique on.
    A lot of people thought that was a failure. I thought it 
was an incredible success because what we did was we learned 
and we learned and we learned some more. And one of the big 
things we learned was that we don't have a good communication 
system. And we never worked that closely with the department of 
health, with hospitals, and we have no communications with 
them. We learned an awful lot from that and we are building on 
it. And when Aurora had the Nunn-Lugar money come down to do 
their exercises, one of the last ones they did about 4 months 
ago was almost identical to Top-Off, and the responses we had 
to that showed me that it's working, that people were working 
together, that we were talking about communications, that we 
were talking about our response, we were talking about mass 
distribution of medical aid to people.
    So it's working. That money was very well spent.
    The MMRS, the Metropolitan Medical Response System, was 
another grant that came down, and Aurora and Denver both were 
cities of that. And with Aurora getting the last one, we've had 
incredible response about making sure that money went to good 
use. We put stockpiles of supplies, Mark 1s and medical 
supplies for first responders to an incident. A major success, 
I think, for our front range.
    And that other money that we used is--I had an opportunity 
to take our county back to Emmitsburg, Maryland, to the 
Emergency Managers Institute for an integrated emergency 
management exercise in the November 2000. They were all leaders 
of our county, all taken care of by Federal funds. That brought 
us together. There were people there I didn't think they could 
be in the same room, and as a matter of fact, when it came down 
to it, they worked very well together. So I've had the 
opportunity to meet with that group and followup every 3 to 6 
months with followup meetings, with training, with tabletops, 
with that kind of thing, and that has been incredible. All 
federally funded money. Again, a success.
    But then I get to the money that came down for 1999, 2000, 
2001, and my image, when I think about New York City, is, sure, 
I see the plane going into the building, but my biggest image 
is seeing those cops and firemen with handkerchiefs tied around 
their faces and gagging and coughing and can't breathe.
    So what I did with that money when it came down, Arapahoe 
and Douglas Counties did a regional application. I got--
$352,000 is what was targeted for us. And I had in my mind that 
I wanted to put together some kind of first responder bag for 
these first responders, for the cops that are going to be out 
there first. We needed to take care of them.
    When September 11th happened, my money was sitting 
someplace between here and who knows where. So I asked the 
Office of Emergency Management, the State, if they would 
request $113,000 to be expedited so I could get those bags 
together as quickly as possible. And they did that. And with 
that 113,000, I put 805 bags together, which included a 
chemical/bio mask, a chem suit, goggles, three different kinds 
of gloves, a decontamination kit, eyewash, earplugs, disposable 
mask, and put it all in a canvas bag that they could carry in 
their car. I assigned one of those to 805 cops. Still short, 
but I picked the primary, most probable officers that would 
respond and said, how many do we need? And I gave them out. 
They were very well received.
    The only problem that comes up is we have a question about 
training. How do we meet OSHA standards? Well, reaching out to 
my resources that I have met over the last 6 years and my 
contacts, I had a meeting 2 days ago with Tri-County Health and 
with three representatives from National Jewish Hospital. They 
came up with a plan to implement training to include medical, 
limitations, and fit tests, which are the three primary things 
for OSHA.
    They're going to do a proposal to me. They're going to do 
it on a very reasonable fee, and I'm going to include that in 
the grant, and it's going to cover every person that received a 
mask. And we are going to be able to take those and be able not 
to have--and one of the reasons why I went with this is, it's 
multifaceted; we can use them for the WMD event. But we can 
also use them for that everyday thing that happens, the turned-
over tanker, with a meth lab, or whatever that they're doing 
perimeters on, to protect themselves. Some protection. They 
have nothing.
    The next round of money that's coming now, we are hoping to 
get somewhere around $500,000, which I'm going to try to get 
probably another 1,000 bags put together to cover every cop in 
two counties. And now I've added one of the rural counties, 
Elbert County, into it because they pretty much have nothing. 
And I thought, well, being big brother, we can help them out. 
So we are going to bring them in, and I'm going to make sure 
every cop gets it.
    The extra money that we've had with that--we call it extra 
because it's just in addition to that--is that our HAZMAT teams 
and our fire departments have been reinforced with detection 
equipment, with decon equipment, and personal protection 
equipment. And although we have not met every need that we 
would like to have, we have far exceeded--and I can't even 
imagine how far we've exceeded--over 1996 when I started.
    So, yeah, we could use more money. We could use more money 
all the time, and there's other things we could do. But with 
the money we've had, we've come a long way.
    We talked about interoperability with radio systems; that 
was one of the comments that was made earlier, the 
interoperability of communication systems. What they do is they 
plug in a radio and it allows them to talk to each other. But 
if there's no control on who gets on those radios, there's 
going to be such mass chaos that you won't be able to 
communicate, but you've got one frequency now or maybe two.
    The other question we need to deal with is the incident 
command system, to have that somehow supported by Federal 
Government down to the State level that says that, yeah, we 
strongly suggest that everyone uses the incident command 
system, which includes a communications plan within that 
system. So that we know that when you have this one frequency, 
the only person talking on it is a commander, and everybody 
else talks with other frequencies within their own department. 
And we can do that. But I think if we don't have that 
communication, we are going to be lost, just like we were with 
Columbine.
    And on the grants, real quickly, I agree with Dave that 
when these grants come in, it's hard to look at a grant when we 
say we need communications and the grant is telling me that we 
need to spend $500,000 on needs assessment. We know what the 
needs are; we don't need to have somebody tell us that we need 
to do a needs assessment.
    Mr. Horn. This is--which agency made that statement?
    Mr. Hoffner. Which one?
    Mr. Horn. On the one that you would have to do a needs 
assessment.
    Mr. Hoffner. That comes down on a lot of grants. They have 
areas that say specifically you have to spend this much money 
on, and we are saying, ``No, we'd like to spend it on this.'' 
And they say, ``No, our guidelines are there.'' And what I'd 
like to see is be able to--like Mr. Sullivan said, is to be 
able to have those grants so they're a little more open. And 
the new one coming down has a little more latitude to it. And 
it's going to allow us to be able to do a little more approach 
to exact needs of our local agencies, and I think that's 
critical.
    And I'll shut up except for questions. Thank you.
    Mr. Horn. Very interesting.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.037
    
    [GRAPHIC] [TIFF OMITTED] T7890.038
    
    [GRAPHIC] [TIFF OMITTED] T7890.039
    
    [GRAPHIC] [TIFF OMITTED] T7890.040
    
    [GRAPHIC] [TIFF OMITTED] T7890.041
    
    [GRAPHIC] [TIFF OMITTED] T7890.042
    
    Mr. Horn. Lieutenant Wicks, Office of Safety Services, 
Police Division, city of Englewood.

   STATEMENT OF LIEUTENANT BYRON D. WICKS, OFFICE OF SAFETY 
          SERVICES, POLICE DIVISION, CITY OF ENGLEWOOD

    Mr. Wicks. Yes, sir. The Department of Safety Services for 
the city of Englewood incorporates fire and police as well as 
building codes and code enforcement. So when I speak, I speak 
both from the fire and police perspective.
    My current assignment is as the investigations bureau 
commander. And before I get started, I want to make note that 
we are the benefactor of Lieutenant Hoffner's initiative and 
project. And we have, I believe, about 76 of those 805 bags 
that Lieutenant Hoffner's agency has donated to us, and we 
appreciate that.
    Right after October or in October 2001, shortly after the 
September tragedy, my director appointed me czar of the 
Englewood Office of Preparedness and Security, as he called it, 
and Lieutenant Hoffner's been in this business for 6 years and 
if he feels confused; I've been in it for about 10 months and I 
know I am. So my perspective is definitely one from the 
operator's point of view, and that's based on 27 years of law 
enforcement experience, 31 years as a commissioned officer in 
the Marine Corps in which I was always assigned to operational 
billets. So as Lieutenant Hoffner indicates, operations at the 
level that we deal with is critical.
    The two points that I want to bring up, and you're going to 
hear a lot of this, if you haven't already, is, first, the 
issue of interoperability. I know it's a hot topic, but if we 
don't have it, we are lost. And as sort of a subset to that 
issue of interoperability, I include communications, obviously, 
and that is definitely a problem, planning, and commonality in 
terms of response.
    There isn't that much difference in a typical response that 
agencies in a suburban area would have. It's not to say that 
one size is going to fit all, but with minor modifications, it 
would be about a 95 percent solution. But when we are on one 
page and Arapahoe County's on another, even if we can talk to 
each other, we are not going to function well enough to do the 
job correctly the first time.
    Which brings up the issue of exercises, both interagency 
and intra-agency exercises. And along with that, it would be 
nice if there was some standard, if you will, if Arapahoe 
County and Englewood had an exercise that maybe the State would 
say, ``This is the way we want to go,'' so we have a common 
direction, a common focus, not just for our two agencies, but 
all agencies in the State of Colorado.
    And then the second point I want to just address very 
quickly, and Roger virtually said everything I was going to 
say: As a grant administrator, funding issues are always an 
issue. One, obviously, is the amount of Federal funding in 
terms of grants, but maybe even more important than that, and 
Roger addressed this, is the fact that, one, how is it going to 
be spent? We recognize our own strengths and we also recognize 
our areas of need better than anybody else does.
    Second of all is the form the grant comes in and the 
complexity that we have to deal with in terms of reporting what 
we've done with the moneys. Some grants, as a grant 
administrator, we will not accept, we will not apply for, 
because it's so difficult, it's so painful as an organization 
to account for that money, we simply won't do it we will not 
take any grants from the COPS program.
    Mr. Horn. Did you ever have money from the COPS?
    Mr. Wicks. Yes, we did, and we were audited, and it was 
incredibly painful, and it was just too difficult to prove what 
they were asking us to prove.
    Mr. Horn. Well, you also had the problem of the localities 
and the cities of having to go out and add some people to their 
law enforcement, either their fire or for police and the 
sheriff's office, and that would be--got you out on a string 
there, and the Federal Government money suddenly comes off. And 
I don't know how much that was a factor in saying that--that 
program happened to be my law which was merged into it, because 
I wanted people just like you, a Marine, when you're retired 
from the military, I thought it was a good thing to do that 
because we needed police people. This was back in 1992-93, and 
so I was curious about what the problem was there with COPS. I 
do know there was a lot of bias as to the politics of it. That 
isn't unusual, but a little more than one.
    Mr. Wicks. Well, we only spent about half our money and 
tried to give it back. That is impossible, to give back money 
on a grant. I mean, we couldn't spend it, we couldn't give it 
back. It was very burdensome. So right now the only grants that 
we will apply for are the block grants. And, quite frankly, I 
like the format of block grants because we get to choose the 
area in which we spend it, a one-page justification for the 
expenditures, and show them a receipt.
    Mr. Horn. Well, I agree with you. I was a big advocate, 
beating the drums, long before I got into Congress in terms of 
revenue sharing, and that way the localities were much more 
able to figure out the needs than somebody sitting in 
Washington. That's my approach to it. There's the revenue 
sharing.
    Mr. Wicks. And the last thing Roger brought up as well is 
we are one of the few police departments that uses the incident 
command system. Apparently Arapahoe County does. We use it 
because in safety services we combine with fire. Almost all 
fire departments use them but very few police departments. It's 
a great system, and it would be nice if the State agencies in 
the State of Colorado were like those in California where they 
all use the incident command system. They're all talking the 
same language and we all understand the responsibilities and 
jobs in a collective endeavor.
    And with that, I'll rest.
    Mr. Horn. That's very helpful, and we'll go in and do a few 
more things.
    And now we have Paul L. Posner, Managing Director of 
Federal Budget Issues, Strategic Issues, U.S. General 
Accounting Office. Some of you, I think, are well known by it, 
and that is headed by the Comptroller General of the United 
States, currently Dave Walker, first-rate person, who believes 
in management and believes in people working together and all 
the rest. And he's got a 15-year appointment, and nobody can 
fuss around with him, including the President and the Congress, 
which is a pretty good deal. He deserves it, and he's doing a 
great job.
    And so we've asked Mr. Posner to tell us what's missing and 
what haven't we got into that we should have gotten into. And 
if we've got something that isn't working right, we throw it 
over to him because we like his little blue books. There's 
about 50 blue books they've put out, by the way, on terrorism; 
isn't that right, easily 50?
    Mr. Posner. Probably more, but easily 50, yeah.

STATEMENT OF PAUL L. POSNER, MANAGING DIRECTOR, FEDERAL BUDGET 
    ISSUES, STRATEGIC ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Posner. Well, thank you. It's a pleasure to be here, 
and it's a pleasure to hear the other testimonies such 
compelling ways showing that our Federal system is still vital. 
It reminds us at Washington how valiant the efforts have been 
out here, and when we craft new Federal responses, we better be 
sure that we support and don't kill that kind of initiative and 
passion.
    We are realizing slowly that this challenge is beyond the 
capacity of any one level of government, including Washington, 
and it means that what we do here involves a national not a 
Federal response. It means it has to be collaborative, 
partnerial in nature. We have over 40 Federal agencies involved 
in this problem, 22 of which are going to be consolidated into 
the Department of Homeland Security, and there's still going to 
be a significant number of agencies not in this department, I 
might add. We have State governments from which we've heard, 
local governments, special districts; we have 87,000 units of 
those. We have private players who are critical in addressing 
this problem, and somehow we all have to figure out a way to 
integrate and overcome the stovepipes that have traditionally, 
at least at the Federal level, and are used to having these. I 
started my career with the New York City budget office and was 
familiar with stovepipes in city government as well.
    One of the things that's so critical we've heard, 
particularly after September 11th, is the statement with regard 
to the first responders, and that's obviously a critical role. 
We've heard a lot about that, how you're better preparing 
yourself. But throughout the whole range of this problem, State 
and local governments are critical. But the last panel brought 
that up very well that even in counterintelligence and 
counterterrorism efforts, State and local governments are 
really critical players because we at the Federal level don't 
have the resources that you do. There are 650,000 police 
officers in this country, and it's dawning on Federal agencies 
that to respond to the kind of threat we are facing, they have 
to get into the community and have those kinds of information--
they need to better find a way to tap the kind of information 
that you have and the resources you have. And that's why the 
INS is starting to contract with local police departments to 
chase down visa overstayers because their staffs simply aren't 
enough to do the job.
    It's true for critical infrastructure. How do we protect 
critical infrastructure? The Federal Government doesn't own 
much and doesn't do much on its own. The critical 
infrastructure--the roads, the highways, the transit 
facilities, the ports in this country, the drinking water--are 
all really owned by State and local governments and private 
sector. And so how we can kind of figure out a way to mobilize 
a response on a national level is absolutely critical to 
solving this problem. And the dilemma for any local official, 
having been one myself at one time, is that you have really a 
lot of different players involved with these things. You don't 
control much, but, you sure are accountable for almost 
everything. And so that's why, you know, it's important that we 
help you better address those kinds of issues.
    I will say that there are shifts going on right now in the 
way we--and we've heard here at the local level some of the 
important initiatives going on. At the Federal level, we all, 
of course, know about the President's proposed a Department of 
Homeland Security. The House has passed a bill largely 
following his proposal. The Senate has a somewhat different 
bill that has not yet passed. We are awaiting a resolution of 
that this fall. We believe at GAO that is a promising first 
step, a necessary but not sufficient step. It's important to 
get all the relevant players, for example, border security, get 
it together. Does that mean they'll all really work together? 
No. That's why putting them into a department is probably the 
first of a maybe 10-year journey before we really achieve the 
kind of harmonization and integration that we need. In the 
bill, for example, the Customs Service still has autonomy with 
regard to submitting its budget directly to Congress, 
notwithstanding the new department. So there are forces that 
still are going to be very difficult to address as the 
department, if we get a department, tries to bring some more 
cohesion to this.
    Grants is one of the real important tools that we think the 
department will use and consolidation of grants is important. 
And you all have experienced the Department of Justice and FEMA 
and the Public Health Service and a variety of other separate 
funding streams coming down with different requirements, and we 
kind of dump it in your lap, and you've got to figure out how 
to bring them together. The Federal Government can do a better 
job of bringing some cohesion to that up front and providing 
some national goals, but giving you flexibility in how you 
address them.
    So those are some of the challenges that we are starting to 
move to, but we've also seen some significant shifts already, 
not even passing the statute yet, in long-standing roles and 
relationships between these levels of government. National 
defense was historically a national responsibility, a Federal 
responsibility. Fire and police were historically a local 
responsibility. What this crisis is bringing to light is that 
defense is increasingly a local responsibility, protecting the 
Nation from this kind of insidious attack. And that, in fact, 
local police and how you work together is a national level 
interest. So we are bringing more of these kinds of levels that 
used to be separate together in some way, and the key is how 
can we do it in a way that both provides accountability to 
achieve some national expectations but gives flexibility to 
avoid a one-size-fits-all.
    For example, when you look at what's in the offing right 
now, what's on the table, we have a new law that Congress 
passed requiring local drinking water systems to do 
vulnerability assessments and develop protection plans with 
some Federal money. We have a new Coast Guard regime that's 
putting a new Federal responsibility over the ports; that used 
to be a State and local responsibility. The Coast Guards 
requiring plans in 55 major ports. Fire services are again 
going to get a lot of Federal help but also probably some 
Federal standards. Communications, historically, we've heard, 
is a fairly fragmented thing. Every State and every community 
does it somewhat differently. The Office of Homeland Security's 
plans say that as a condition for Federal grants, local and 
State governments are going to try to achieve some greater 
interoperability, some national standards coming down in that 
arena. For the motor vehicles issue every State has a separate 
Department of Motor Vehicles. We are now seeing national 
proposals coming from Congress and the President to nationalize 
that responsibility, to get States to provide better secure 
documents when they issue driver's licenses so that we don't 
have terrorists able to counterfeit these kinds of documents. 
So there's going to be greater national pressures building on 
local services. The question is, how can we do it in a way that 
accommodates both national and local roles?
    We've also seen State and local roles changing, and that's 
one of the issues when we talk about what's missing here. One 
of the things we've been doing is we've been going out, and 
we've seen, as jurisdictions within metropolitan regions 
attempting to work together more closely. Bringing together 
partners across a community as widespread as the Denver 
Metropolitan area is not an easy challenge. Every metropolitan 
area has tens, or hundreds in some cases, of governments, 
special purpose and others, that are responsible to their own 
constituencies. How to bring some harmonization together is 
always a challenge.
    And so as we look down from the Federal angle, we see some 
of these problems are clearly local, some of them seem to be 
State, when the States can provide leadership, and some of them 
might best be done on a regional basis. And we've seen, as we 
visited, a lot of this starting to happen on its own. Mutual 
aid agreements historically have been in place. The public 
health networks are improving. And we are seeing a lot more 
here in Denver and other areas of regional efforts to promote 
better sharing and promote more economy of scale in how we 
provide for this expertise we need. But more, clearly, can be 
done in that regard, and it's historically very difficult to 
get communities, whether in the Washington area or New York 
area, to really collaborate with one another. And that's the 
kind of thing that we need to promote.
    And we look at critical infrastructure areas, and we also 
see a lot of fragmentation there. Take, for example, airports. 
Airports have a patchwork quilt of different players 
responsible for security. We have TSA now responsible once you 
go through the gate. We have local and State governments 
responsible for the perimeter. We have the National Guard that 
comes in from time to time. We have the FAA that has 
responsibility. The airlines have responsibilities. So when we 
look at the safety of airlines and airline travel, we have a 
lot of players. And it's not clear to anyone that this has 
really been sorted out.
    The same thing goes for something like food safety. You 
take the distribution chain and you have, you know, from the 
farm to the processor to the retail establishment to the 
grocery store or the restaurant, very different governmental 
roles and responsibilities for each stage of that process. The 
farmer is pretty much on their own. We have some kind of State 
roles there. When you get to the processing plants, why, there 
you have two different Federal agencies: The Agriculture 
Department responsible for meat and poultry, and the FDA 
responsible for pretty much everything else. We don't have any 
Federal standards; we have voluntary standards that those 
agencies have put out for that phase of the distribution 
process. When we get to the restaurants, that's totally State 
and local.
    So what the President's homeland security plan suggested, 
and I think this is a useful thing to think about, is having a 
national strategy for each one of these critical infrastructure 
areas so that we would at least have a way to agree as a Nation 
whether we are comfortable and whether those roles and 
responsibilities are appropriate.
    Given all these different players, it's really important to 
have clear goals and measures as we craft national strategies--
what we are trying to achieve. How much security is enough, and 
how will we know it when we get there? The presence or absence 
of a terrorist event is not an acceptable performance measure. 
We want at national levels to make more of these investments. 
The quid pro quo is, I think, we are going to want to see some 
demonstrable changes in the results, in the outcomes. What are 
we getting by way of approved protection? Are there ways to 
measure it? Can we get every one of the systems to subscribe to 
those measures?
    Finally, we've heard a lot of discussion, rightly so, about 
assistance, and we need to think more clearly at the national 
level about how we are going to get this done. Because, 
clearly, every hearing we do and every time we go to the local 
level, needs are incredibly large and always outrun the funding 
available. I'm reminded that the congressional budget office on 
Tuesday is going to issue their latest deficit update for the 
Federal Government; $160 billion deficit in 2002.
    One of my other responsibilities at the General Accounting 
Office is to develop long-range Federal budget forecasts. And 
given the aging of our population and the increasing demands of 
Social Security and Medicare and Medicaid, why, our forecast of 
CBOs say that at current tax rates, we are going to be able to 
basically pay for the elderly and their doctors and that's 
about it in 20 years. In other words, we are quickly running, 
as the baby boomers retire, into dire fiscal straits. And so 
the question is, how do we respond to these urgent needs in a 
way that is both effective and economical? And that means we 
are going to have to think hard about how to best target these 
moneys, how to best ensure that we are going to get something 
of value for this. How, for example, to ensure that when we 
hand money down to local communities and States that they don't 
simply turn around and replace their own money with our money 
and cut taxes or put it in some other area. In other words, we 
need to prevent fiscal substitution. We need to have reasonable 
accountability provisions. I know that planning sometimes can 
go a little awry. Some kind of, again, assurance of results in 
terms of what we are getting for the money is important.
    And, finally, there is the question of sustainability. How 
long should the Federal Government be involved, and what should 
be the Federal versus the State versus the local shares of 
costs in these things? So the point is, I think, by and large, 
we have to fig-
ure out a way to have a national and not a Federal approach. 
How do we balance accountability and flexibility, and how do we 
do it in a way that capitalizes on the strengths of each of the 
levels of government in forming a real partnership. Thank you.
    [The prepared statement of Mr. Posner follows:]

    [GRAPHIC] [TIFF OMITTED] T7890.043
    
    [GRAPHIC] [TIFF OMITTED] T7890.044
    
    [GRAPHIC] [TIFF OMITTED] T7890.045
    
    [GRAPHIC] [TIFF OMITTED] T7890.046
    
    [GRAPHIC] [TIFF OMITTED] T7890.047
    
    [GRAPHIC] [TIFF OMITTED] T7890.048
    
    [GRAPHIC] [TIFF OMITTED] T7890.049
    
    [GRAPHIC] [TIFF OMITTED] T7890.050
    
    [GRAPHIC] [TIFF OMITTED] T7890.051
    
    [GRAPHIC] [TIFF OMITTED] T7890.052
    
    [GRAPHIC] [TIFF OMITTED] T7890.053
    
    [GRAPHIC] [TIFF OMITTED] T7890.054
    
    [GRAPHIC] [TIFF OMITTED] T7890.055
    
    [GRAPHIC] [TIFF OMITTED] T7890.056
    
    [GRAPHIC] [TIFF OMITTED] T7890.057
    
    [GRAPHIC] [TIFF OMITTED] T7890.058
    
    [GRAPHIC] [TIFF OMITTED] T7890.059
    
    [GRAPHIC] [TIFF OMITTED] T7890.060
    
    [GRAPHIC] [TIFF OMITTED] T7890.061
    
    [GRAPHIC] [TIFF OMITTED] T7890.062
    
    [GRAPHIC] [TIFF OMITTED] T7890.063
    
    [GRAPHIC] [TIFF OMITTED] T7890.064
    
    [GRAPHIC] [TIFF OMITTED] T7890.065
    
    [GRAPHIC] [TIFF OMITTED] T7890.066
    
    [GRAPHIC] [TIFF OMITTED] T7890.067
    
    Mr. Horn. OK. And let us go back a minute now on a few 
questions, and then we'll wrap it up.
    Mr. Wall, I was curious as to what degree are the Veterans 
Administration hospitals and clinics working with your overall 
association, and what do you feel the VA can do in terms of 
some of the things we've talked about in terms of the attacks 
of chemistry, biology, you name it, and are we prepared for the 
private, nonprofits, and the VA, and the military hospitals?
    Mr. Wall. Several questions there. I'm not sure I have 
answers to all of those, but----
    Mr. Horn. Are they part of your group?
    Mr. Wall. The VA system, at least in Denver, the hospital 
in Denver is a member of the association. The other outlying VA 
hospitals are not members. They are appointed to be represented 
on the hospital preparedness advisory committee, but to date I 
don't believe we've had a representative attend any of our 
hospital preparedness advisory committee meetings. With regard 
to the issue of capacity that you raised earlier, there was a 
time in Colorado when we had approximately 5 beds per 1,000 
population. As a result of the changes in the health care 
economy, we are down today to about 2 beds per 1,000 
population. So the issue of excess capacity is not present any 
longer, and I think Dr. Miller talked about surge capacity, and 
we right now as part of the needs assessment process are 
evaluating how many gurneys are available, can beds be put in 
hallways, do we have power to be able to do that, and so on and 
so forth. So I think the issue of capacity with regard to 
application to a significant event is something of a very 
significant nature that we need to be very, very concerned 
about.
    For example, most hospitals in Colorado were built in the 
1960's and 1970's. We obviously have some that are----
    Mr. Horn. Hill-Burton?
    Mr. Wall. A lot of Hill-Burton money around the country and 
Colorado included. Emergency power needs in the 1960's and 
1970's were very different than emergency power needs today. I 
mean, computers weren't even a reality back in those days, and 
now all of the technology that we have is basically driven by 
computers. Emergency power was not, in fact, required at that 
level at that time. It was basically required to be able to 
continue a surgery in an OR, for hall lighting, perhaps for 
food preparation, but nowhere near to the extent were the power 
requirements in place in that time that we have today. So to 
upgrade capacity in case power had to be self-sustaining is a 
very significant issue for most hospitals in the eventuality of 
an event like this.
    Work force capacity is a significant issue today. Even if 
we had all of the equipment that we needed, even if we had all 
the beds we needed, the question is, where is the work force 
going to come from to staff those beds if all of a sudden you 
had a need for 1,000 new patients in a metropolitan area like 
Denver? I can tell you right now the capacity is not there to 
address an event of that size.
    Dr. Miller was talking about the work that we are doing 
trying to address this issue on a regional basis where we could 
take care of 500 patients. That is a lot of additional patients 
in a system which, quite frankly, from a bed capacity point of 
view, is there right now.
    So there are some very significant needs out there, and 
that's why I raise the funding issue as important. And clearly 
the money is needed for the improvement of the infrastructure 
for public health. There's no question about that. But to put 
that in context, the first-year grants to public health were 
about $14 million in the State of Colorado. The first-year HRSA 
grant for hospitals in the State of Colorado was $1.9 million, 
a portion of which is utilized for staff required as part of 
the grant as well as the cost of the needs assessment which was 
part of the grant as well. So we may net out of that for 
hospital capability the first year maybe a million and a half 
dollars. And I can tell you, that doesn't begin to scratch the 
surface in terms of having hospitals prepared. And the issue of 
preparedness is ongoing. It's not that we get ready for a year 
and then we don't have to be concerned about it. This is going 
to be an issue of ongoing concern well into the future, and I 
think we need to look at it in a long-term context.
    Mr. Horn. I think some of these terrorists will be doing a 
lot of mischief, and most hospitals have a separate supply of 
electricity and energy, I think I'm right on that, where they 
have gasoline and motors, should they ever try to do something 
like knocking down the towers and all that. And that will 
probably happen just as it did in New York. But the power goes 
out and all the rest, and what do we do and what are we doing 
now to make sure that they can't get to the different batteries 
that are in many hospitals and motors to generate that energy?
    Mr. Wall. I think you have two issues there. Certainly 
hospitals have emergency capability. I think my point is that 
the bulk of that emergency capability in hospitals is 
undersized based upon the power needs of hospitals in the year 
2000. And for us to think that we have the capability on those 
emergency power systems to run all of the equipment that we 
would need in order to respond to an event like this, I think 
is not appropriate. It is just not there. Emergency power 
capability is critically important.
    With regard to the issue of security, hospitals throughout 
this country, and certainly in Colorado, have internal security 
forces in most cases, although, again, the further outside the 
metropolitan area one goes, the more problematic that becomes. 
But there certainly would be ways, I think, of protecting a 
hospital from outside mischief, for the most part. Those 
generators are tested periodically, and they are available. 
But, again, it's a question of the capability of those 
generation systems that is in question.
    Mr. Horn. The first panel, before they went away, we said, 
if you could see the President for 30 seconds, what's the most 
important thing you'd tell him?
    Mr. Wall. I think there's probably three things. One is the 
continued need for ongoing work force development. And 
sometimes that may not be viewed as part of preparedness, but 
the reality is we can have all the equipment and capacity we 
need, but if the work force isn't there to provide the care, 
it's all for naught. So I think work force development is 
absolutely essential.
    Second, the training of that work force is critical. The 
issue of bioterror agents, chemical agents, and weapons of mass 
destruction are new things for hospitals to have to deal with. 
I think--As the lieutenant said earlier, he's been in this 6 
years and still feels lost on occasion, and I think the same is 
true for health care professionals, although that's their daily 
routine. We are talking about a new and different time and new 
and different agents, which is going to require extensive 
training and ongoing training because of the turnover of 
personnel that occurs as well.
    And then last, obviously, the equipment needs that we have. 
Most hospitals, certainly outside of Metro Denver, do not have 
individual decontamination capability. There's very little 
personal protective equipment available. And, obviously, the 
key thing we've talked about today is the communications 
system. And in a State like Colorado, with our varied 
geography, communication in nonemergency circumstances is a 
tremendous challenge, let alone during an emergency where it's 
necessary for all first-line responders and enforcement 
agencies and incident command centers to all be able to talk 
with one another with regard to the management of that 
incident. And I can tell you that is a tremendous problem in 
the State of Colorado.
    Mr. Horn. What do you feel are the human, in terms of 
personnel, type of issues for the hospitals? Is it the nurse 
shortage?
    Mr. Wall. Nursing is clearly an issue, but in Colorado we 
also have shortages of radiologic technologists, laboratory 
personnel. Labs have been mentioned a number of times today, 
and laboratory personnel are in short supply. And another key 
profession is that of pharmacists. We have a significant 
shortage of pharmacists throughout the entire country. And if 
you begin to think about the distribution of pharmaceutical 
supplies during an event of this nature, they're going to be a 
very key profession in our ability to respond.
    Mr. Horn. What about the various scholarships we have had? 
Maybe they aren't enough. We've had nursing scholarships from 
the Federal Government. We've had the GI bill generally after 
the Second World War. And what do you think the government 
should do about that? Now we are talking about bringing people 
from the Philippines and all that, and they're already here. I 
mean, they've been here for probably two decades at least. How 
do you think you're going to solve this problem of getting them 
educated?
    Mr. Wall. Well, I think, again, Mr. Chairman, it goes back 
to the issue of adequate funding for the training of the health 
professions. And over the years, I think if you look at the 
expenditure for the education of health professionals, it's 
progressively become less and less and less. And I know 
Congress right now is looking at a Nursing Reinvestment Act. I 
think that's a critical issue, but not only for nursing, but 
for the other health professions as well. We in health care 
have our own work to do to make health care an attractive 
profession for individuals as well. Quite frankly, the ability 
to move into the computer sciences where you work 5 days a 
week, 8 hours a day, make significant 6-figure incomes, 
compared to nursing, where you're working 7 days a week or 
you're at least available 7 days a week, 24 hours a day, 365 
days a year, that's not very enticing to young people. And I 
think we need to do some things about that from the point of 
health care as well. But we clearly need to reemphasize the 
importance of the health care professions at the national 
level.
    Mr. Horn. Thank you. Mr. Sullivan, if you were in the 
President's oval office for 30 seconds, what would you tell 
him?
    Mr. Sullivan. I think I'd just sum up my earlier remarks. 
Additional resources, flexibility in their use, coordination, 
and the interoperability of communications equipment, and that 
would be both the personnel and the technical interoperability. 
We have a tendency, I think, to focus on solving our 
communication needs by buying new radio systems. It's been my 
experience that a lot of the communication doesn't take place 
because of cultural differences or blinders, if you will, of 
the agencies involved. And that's something we need to address.
    Mr. Horn. So you've really got to work with the culture of 
bureaucracy, bureaucracy by bureaucracy?
    Mr. Sullivan. Essentially. And the tendency, particularly 
on the first responders' level, to focus in on your particular 
discipline and what you've been trained to do and not step back 
and realize that it's a broader issue, and you need to 
communicate with law enforcement, fire, EMS, public health, and 
those types of things.
    Mr. Horn. And with this new department that we have, a lot 
of mergers and a lot of corporate mergers have occurred. And 
when those come together, there's often also a problem--just 
like Customs, 200 years of real help in this country. And same 
thing with the Coast Guard. You have a problem, and 
corporations have looked at that. And you've got to be very 
fair to those you merge with so that the one group does not 
have all the positions. They've got to meld them with the rest 
of the group and have them all working together.
    Mr. Sullivan. Yes, sir. We need to--It's just a simple 
process--I wish it were a simple process--of breaking down 
barriers. There's been a lot of talk today about intelligence 
sharing. That needs to happen. We need to break down a lot of 
the barriers. That isn't just a Federal and State problem; it's 
a local problem. Law enforcement--and I say that even though 
the two gentlemen to my left are armed----
    Mr. Hoffner. I don't have any bullets.
    Mr. Sullivan [continuing]. Has been reluctant to share 
outside of the law enforcement community. And it's one thing 
for the FBI to send information to State law enforcement and 
local law enforcement, but if that information doesn't get 
distributed out to public health and EMS and fire and emergency 
management agencies, it really doesn't serve its purpose.
    Mr. Horn. Thank you. What would you tell the President, 
Lieutenant Hoffner?
    Mr. Hoffner. Well, if I had 30 seconds, I'd say it's really 
important that we make sure that the Federal Government keeps 
doing what they're doing, but we need not forget who's going to 
be the first responders to that incident, and who's going to be 
taking care of that incident and those people and those victims 
and those communities for the first 2 or 3 days. And that's our 
law enforcement and fire departments, and we need to make sure 
that they have the training and the personal protection 
equipment to make sure that they can survive.
    Mr. Horn. How about you, what's your version, Lieutenant?
    Mr. Wicks. Mr. Chairman, I think one of the things I would 
ask the president to do is assist the civilian population, if 
you will, with training for these critical incident commanders 
to include community leaders, some of the politicians, you 
know, kind of in this same environment, so the community 
leaders understand the issues that we as critical incident 
commanders have to deal with, and we would all kind of get the 
global perspective more than that myopic perspective of this is 
what I do and there's no cause and effect out there, because 
there is. What I do will have a cause-and-effect and a ripple 
effect on a lot of other people and agencies.
    Mr. Horn. Mr. Posner, 30 seconds.
    Mr. Posner. Well, I would say the well-intentioned efforts 
to respond to crises in the past often lead to phenomena that's 
been called ready, fire, aim, and we ought to be better 
prepared this time to put management more up front in terms of 
thinking clearly, what are the tools we are going to use, how 
are we going to design them, and how we going to deploy 
managers at the Federal, State, and local level to really think 
through how these things are going to be implemented.
    And in that regard, we had a vehicle where these kinds of 
discussions took place in Washington--the ACIR, the Advisory 
Commission on Intergovernmental Relations. It's been out of 
business for a while. And these field hearings are very useful 
in bringing up some issues we need to be thinking more 
systematically about in Washington, and how can we create a 
forum to have these kind of discussions back there.
    Mr. Horn. Well, we thank you all. And I think we've learned 
quite a bit. And it will be a good report with the help of our 
fine reporter.
    I want to put on the record thanks from the staff, and that 
includes Mr. Russell George, who is now leaving the 
subcommittee, but he's done a wonderful job over the last 5 or 
6 years. And he is now the inspector general for an agency 
that--he was given a nomination and now confirmed by the 
Senate. And so the lady on the left here, and your right, is 
the acting staff director, Bonnie Heald. We also have the chief 
of staff in my office, Dave Bartel is back there. And Chris 
Barkley is assistant to the subcommittee. And Bonnie Heald and 
Chris Barkley and Dave are all on this particular hearing, and 
we thank them a lot because it meant tough hours, 2 and 3 in 
the morning working, this kind of thing.
    Michael Sazonov is back in Washington, staff assistant. And 
here in Denver we have Dan Kopelman and Adam Roth from 
Representative Tancredo's staff. And then Anne Roelofs is the 
Jefferson County facilities person, and she got us this 
wonderful auditorium here. She hasn't towed our cars away yet, 
we think, and she's a real worker who knows how to do things. 
And not least but the best is here, the court reporter, Stacy 
Armstrong. So thank you very much. And with that, we are 
adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]


</pre></body></html>
